   SIGNIFICANT IMPROVEMENTS IN
 MOTOR CARRIER SAFETY PROGRAM
SINCE 1999 ACT BUT LOOPHOLES FOR
 REPEAT VIOLATORS NEED CLOSING
   Federal Motor Carrier Safety Administration

           Report Number MH-2006-046
            Date Issued: April 21, 2006
           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Significant Improvements in                                      Date:    April 21,2006
           Motor Carrier Safety Program Since 1999 Act, But
           Loopholes for Repeat Violators Need Closing
           Report Number MH-2006-046

           Kurt W. Hyde                                                                    Reply to
                                                                                           Attn. of:   JA-40
           Assistant Inspe
              Surface and Maritime Programs

           Federal Motor Carrier Safety Administrator

           This report presents the results of our audit of the Federal Motor Carrier Safety
           Administration's (FMCSA) implementation of the Motor Carrier Safety
           Improvement Act of 1999 (MCSIA). As required by MCSIA, we have assessed
           FMCSA's progress in implementing the Office of Inspector General's (OIG) 1999
           audit recommendations, analyzed the number of violations cited by safety
           inspectors and the level of fines assessed and collected for such violations, and
           identified the number of cases with findings of extraordinary circumstances under
           Section 222(c) of MCSIA.

           Congress passed MCSIA to establish FMCSA, enhance safety regulations, provide
           comprehensive oversight of motor carriers and commercial drivers, and reduce the
           number and severity of crashes involving large trucks. MCSIA also authorized
           stronger enforcement authority for FMCSA, such as assessing maximum civil
           penalties against repeat violators of safety regulations. MCSIA directed FMCSA
           to initiate safety audits for new motor carriers, complete numerous rulemakings to
           strengthen oversight of the motor carrier industry, improve the quality of program
           data, and implement the OIG's 1999 audit recommendations.

           Our 1999 audit1 of the motor carrier safety program concluded that Federal
           oversight did not sufficiently ensure motor carriers complied with the safety
           regulations. The basic problem was not with the majority of motor carriers who
           operate safely, but with the minority who repeatedly violate the safety regulations.


           '   OIG Report Number TR-1999-091, "Motor Carrier Safety Program," April 26, 1999. OIG reports can be found on
               our website: www.oig.dot.~ov.
We made 14 recommendations, shown in Table 1, to strengthen enforcement of
the safety regulations and improve data used to regulate motor carriers.

            Table 1. April 1999 OIG Audit Recommendations

  Strengthening Enforcement
  • Strengthen enforcement policy by taking strong action against repeat violators.
  • Revise uniform fine assessment program to increase fines.
  • Establish stiff fines that cannot be considered a cost of doing business.
  • Remove operating authority from carriers that do not pay fines within 90 days.
  • Establish criteria for determining when a motor carrier poses an imminent hazard.
  • Require follow-up visits and monitoring of motor carriers with less than satisfactory ratings.
  • Require justification when compliance reviews of high-risk carriers are not done.
  • Establish policies and procedures for closing enforcement cases, including backlogs.

  Improving Data Collection and Analysis
  • Require applicants to provide vehicle and driver information and require updates.
  • Use grants to obtain accurate, complete, and timely crash and inspection data.
  • Withhold grant funds from states that report inaccurate, incomplete, and untimely data.
  • Train local enforcement agencies about reporting crashes, inspections, and traffic violations.
  • Standardize crash data requirements and collection procedures.
  • Evaluate crash causation data to identify safety improvements.


Our audit objective was to assess FMCSA’s progress in (1) implementing OIG’s
1999 audit recommendations, (2) establishing the new entrant program, and
(3) completing MCSIA-required rulemakings. Exhibit A describes the scope of
our audit and the methodology we used to achieve our objectives.

RESULTS IN BRIEF
As of 1998, large truck-related fatalities had been on the rise for several years. At
the time, the Office of Motor Carriers (OMC), a division of the Federal Highway
Administration, was responsible for overseeing motor carrier safety. Our 1999
audit reported that OMC was too close to the trucking industry, emphasizing
partnering rather than enforcing the safety regulations. In creating FMCSA,
Congress recognized the importance of improving motor carrier safety by
providing stronger enforcement tools, increasing budget and personnel resources,
and directing the attention necessary to improve oversight of motor carrier safety.
Since its creation, FMCSA has faced substantial challenges in meeting its
oversight obligations for a range of important safety issues, such as drivers’ hours
of service, commercial driver’s licenses (CDL), and quality of motor carrier data.

Despite these challenges, FMCSA significantly improved oversight of motor
carrier safety since our 1999 audit. The absolute number of large truck-related
fatalities decreased from 5,395 in 1998 to 4,939 in 2002, but increased to 5,036 in
2003 and 5,190 in 2004. Fatalities generally decreased as FMCSA and the states


                                                                                                     ii
increased enforcement of the regulations through compliance reviews2 and
enforcement actions.3 In addition, FMCSA hired the important executive and
legal personnel necessary to implement MCSIA and developed policies,
procedures, and practices to address our 14 audit recommendations. FMCSA also
implemented a program to improve the safety performance of new motor carriers
and issued 27 rulemakings required by or associated with MCSIA provisions. The
agency has also started important initiatives to reduce fraud in the CDL program
and to re-evaluate its processes for conducting compliance reviews.

Although FMCSA made progress, several significant challenges remain that, if
resolved, could help FMCSA further enhance enforcement and oversight.
Specifically:

• FMCSA’s initial repeat violator policy was not properly implemented.
  Although our analysis did not find concerns involving FMCSA’s findings of
  extraordinary circumstances, we did find problems with how the repeat
  violator provisions were implemented. Motor carriers were allowed to escape
  maximum fines because FMCSA was slow to fully implement our 1999 audit
  recommendation to strengthen enforcement against repeat violators of the
  safety regulations.

      FMCSA issued an initial “three strikes” policy in September 2000, but did not
      properly implement the policy and did not provide sufficient notice of the
      policy to the motor carrier industry. Consequently, it published a policy
      clarification in the Federal Register4 in December 2004. During this 4-year
      period, FMCSA enforced maximum civil penalties against 146 motor carriers.

      However, we identified 71 additional motor carriers who repeatedly violated
      the safety regulations but were not assessed maximum penalties. Because of
      the policy clarification, violations committed before December 2004 may not
      count against repeat violators. In effect, the 6-year timeframe for accruing
      violations was delayed by up to 4 years, and motor carriers who committed
      violations from September 2000 to March 2004 will essentially be given a
      clean slate, as violations during this period will not count in identifying a
      pattern of violations.

• FMCSA’s repeat violator policy allows motor carriers to escape maximum
  fines. FMCSA’s consideration of legislative restrictions when assessing fines,
  such as a motor carrier’s ability to pay, sometimes results in some violations
  being omitted from the Notice of Claim provided to the motor carrier, even
2
    A compliance review determines whether a motor carrier meets safety fitness standards for driver qualifications,
    vehicle maintenance, financial responsibility (insurance), crash involvement, handling of hazardous materials, etc.
3
    Enforcement actions include civil penalties, out of service orders, and consent orders.
4
    Federal Register Docket Number FMCSA-2004-19882, December 28, 2004.

                                                                                                                    iii
      with evidence proving the violations. Because undocumented violations are
      not considered in identifying a pattern of violations, repeat violators of the
      same regulation may not always be assessed the maximum penalty. For
      example, between September 2000 and October 2004, 533 motor carriers
      repeatedly violated either the hours of service or the drug and alcohol
      regulations, and 67 repeatedly violated both regulations. Because some
      violations were not documented, and thus not enforced on the Notice of Claim,
      only 33 (6 percent) of the 533 motor carriers received the maximum penalty.

      This loophole allows hundreds of motor carriers to repeatedly violate
      significant safety rules without exposure to maximum penalties. Although it is
      important to consider a motor carrier’s ability to pay a fine, this principle
      should not override congressional concerns about repeat violators. To address
      both concerns, FMCSA, at its discretion, should assess a no-fine penalty5 or
      use another appropriate mechanism to legally notify a motor carrier that future
      violations may result in the maximum fine.

      Closing this loophole will allow FMCSA to further deter violations of the
      safety regulations. For example, the driver hours of service rules are among
      the most frequently violated, accounting for 30 percent of all acute and critical
      violations. The Safe, Accountable, Fast, and Efficient Transportation Equity
      Act of 2005–A Legacy for Users6 (SAFETEA-LU) increased the maximum
      fines for recordkeeping and falsification violations. In our view, even with the
      penalty increases, unscrupulous motor carriers will have an incentive to violate
      the hours of service rules, especially if FMCSA does not assess the maximum
      penalties when warranted.

• Improvements in quality of data required by law are still needed. FMCSA
  took positive steps to improve data from motor carriers and the states, but
  problems remain. Approximately 192,000 (27 percent) of 702,277 existing
  motor carriers did not update census data on drivers and trucks; and since
  2002, only 20 civil penalties were imposed against motor carriers for failing to
  update census data. Additionally, state crash forms do not consistently define a
  large truck or a reportable crash, resulting in confusion regarding the crash
  information FMCSA needs. Data quality is especially important because
  census and crash data are used by SafeStat to rank the safety performance of
  motor carriers and target them for compliance reviews and inspections.
  Without this critical data, FMCSA cannot effectively identify all high-risk
  motor carriers. Finally, although the Large Truck Crash Causation Study was

5
    The use of the term “if any” in the following legal description suggests that a no-fine penalty would be permitted on
    a Notice of Claim. Title 49, United States Code, Section 521 (b)(1)(A) states that a motor carrier should be provided
    a notice that indicates a violation of a regulation has occurred, specifies the proposed civil penalty, if any, and
    suggests actions that might be taken in order to abate the violation. (Emphasis added.)
6
    Public Law 109-59, August 10, 2005

                                                                                                                      iv
      completed and the results were provided to Congress in March 2006, FMCSA
      has not met the MCSIA requirement to provide Congress with legislative
      recommendations.

• Continued monitoring needed to maintain timeliness and enhance
  effectiveness of new entrant safety audits. FMCSA established regulations
  and operating procedures to implement the new entrant program. New motor
  carriers applying for interstate operating authority must register with FMCSA
  and receive a safety audit7 within 18 months of operation. Initially, FMCSA
  conducted the majority of the safety audits, beginning in April 2003. As
  funding increased, states gradually increased production as safety auditors
  were hired and trained.

      Our analysis of FMCSA data as of November 1, 2005 indicated that states
      completed about 78 percent of the 66,373 safety audits, and that only
      663 motor carriers were not audited within 18 months as required. However,
      FMCSA’s decision to reclassify 4,751 motor carriers in its database from
      “inactive” to “active” in July 2005 created a bubble of new entrant motor
      carriers awaiting an audit – a number nearly twice as large as any other month
      in our analysis. Although safety audits have been timely, FMCSA needs to
      monitor safety audit progress to ensure continued timeliness. In addition,
      based on our analysis and FMCSA’s own analysis, further study of the
      effectiveness of the new entrant program is needed.

•     FMCSA needs to complete a significant medical certificate rulemaking.
      Of 29 MCSIA-required rulemakings, 28 have been completed. Although
      FMCSA plans to issue a Notice of Proposed Rulemaking (NPRM) to combine
      the CDL and driver medical certificate later in 2006, it is important that
      FMCSA work diligently towards completing a final rule.

RECOMMENDATIONS

Since our April 1999 audit, FMCSA has made positive strides in improving motor
carrier safety through its increased emphasis on enforcement, implementation of
the new entrant program, and completion of numerous rulemakings. However, to
fully implement our recommendations and to further advance efforts to reduce
large truck fatalities, we recommend that FMCSA:




7
    The purpose of a safety audit is to educate the new entrant motor carrier about the applicable safety regulations and
    to assess the adequacy of the motor carrier’s basic safety management controls.

                                                                                                                       v
1. Strengthen the repeat violator policy by:

   a. enhancing controls, such as automated notification of prior violations in
      enforcement case software, to ensure that all violations meeting the current
      three strikes criteria are assessed the maximum penalty allowed by law and

   b. developing a procedure to count toward a “pattern of violations” under
      MCSIA Section 222, irrespective of how the violations are treated under
      UFA, all acute and critical violations that FMCSA discovers during future
      compliance reviews and either documents for inclusion on the Notice of
      Claim or obtains the motor carrier’s signed admission. The procedure must
      include an appropriate mechanism to notify the motor carrier of the
      agency’s discovery of the violation and of the applicability of Section 222.
      This recommendation shall neither diminish a motor carrier’s opportunity
      to challenge the Section 222 “strike”, nor FMCSA’s enforcement discretion
      to decline charging an arguable violation in appropriate circumstances.

2. Take firm action to increase compliance with the census data updating
   requirement by intensifying efforts to fine motor carriers that resist compliance
   or by taking other measures that can be demonstrated to be effective.

3. Establish a system to track attendance for the crash data training course and
   visits to the crash data website, and compare the results to changes in crash
   data reporting by states to assess whether training efforts are successful.

4. Rapidly implement the planned actions in the Crash Data Improvement Project
   plan and establish milestones for improving states’ compliance with
   standardizing crash reports and data elements.

5. Develop milestones for completing the required legislative recommendations
   for the Large Truck Crash Causation Study issued in March 2006.

6. Continue monitoring state safety audit activity to ensure timely completion of
   all safety audits.

7. Continue ongoing efforts to identify needed changes in the new entrant
   program to increase the enforcement component that would improve safety.

8. Expeditiously complete the driver medical certificate rulemaking.

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided FMCSA a draft of this report on December 16, 2005. In its
February 14, 2006 written comments, FMCSA identified actions taken or planned

                                                                                  vi
that were responsive to six of our eight recommendations. FMCSA nonconcurred
with our recommendation to develop a procedure to ensure that repeat violators
are assessed maximum fines (recommendation 1b) and partially concurred with
our recommendation to fine motor carriers that do not update census records
(recommendation 2). Although FMCSA provided its written perspective on these
recommendations, it did not propose actions or plans responsive to our
recommendations. FMCSA also did not provide specific milestones for
completing planned actions for three recommendations (3, 7, and 8).

The OIG met with FMCSA officials on April 5, 2006 to discuss the two issues of
disagreement. The meeting resulted in resolution of the nonconcurrence with
recommendation 1b, although the disagreement on recommendation 2 was not
resolved. Specifically, for recommendation 1b, FMCSA agreed to take action to
ensure that repeat violators of the motor carrier safety regulations are not allowed
to escape maximum fines, although it will maintain discretion on which violations
to document. FMCSA indicated that it will identify specific approaches to
implement our recommendation when it responds to our final report.

For recommendation 2, FMCSA indicated that fining motor carriers for failing to
update census data would not be cost-effective, and it did not commit to any
specific action to further improve compliance. At this time, we consider
FMCSA’s position to be nonresponsive to our recommendation. However,
FMCSA did agree to consider alternative measures to encourage increased
compliance with the census data updating requirement. In our view, it is
important to increase compliance with the updating requirement because SafeStat
uses the census data to rank the safety performance of motor carriers. Without this
critical data, FMCSA cannot effectively identify all high-risk motor carriers. The
importance of data quality was recently reiterated by the Chairman of the House
Subcommittee on Highways, Transit, and Pipelines in requesting that OIG perform
a follow-up audit of the quality of SafeStat data.

Based on FMCSA’s written and verbal comments, we revised recommendations
1b and 2 to include additional detail and appropriate clarifications. Our analysis of
FMCSA’s complete comments to our draft report is provided on pages 23 through
27 in the body of the report. FMCSA’s complete written comments on the draft
report findings and recommendations are in the Appendix to this final report.

ACTIONS REQUIRED
FMCSA’s planned actions to address seven of our eight recommendations are
responsive. Regarding the remaining recommendation, we request that FMCSA
provide specific information and milestone dates for planned alternative actions to
increase compliance with census updating requirements (recommendation 2). We
also request that FMCSA provide specific information and milestone dates for

                                                                                  vii
planned actions to ensure that repeat violators are not allowed to escape Section
222 maximum penalties (recommendation 1b). Finally, we request that FMCSA
provide specific milestone dates for recommendations 3, 7, and 8. In accordance
with DOT Order 8000.1C, we request that FMCSA provide a written response
within 30 calendar days of this final report.

We appreciate the courtesies and cooperation provided by FMCSA and other
Department representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-2017 or Joseph W. Comé, the
Program Director, at (202) 366-0377.

                                       #
cc: National Highway Traffic Safety Administrator




                                                                              viii
                               TABLE OF CONTENTS
BACKGROUND ..................................................................................... 1
FINDINGS .............................................................................................. 2
    Trends Show FMCSA’s Higher Emphasis on Enforcement .............. 2
    FMCSA’s Repeat Violator Policy Needs Strengthening.................... 5
    Quality of Motor Carrier Data Needs Improvement........................... 9
    New Entrant Program Needs Further Oversight and Study ............ 16
    One MCSIA Rulemaking Remains Outstanding ............................. 19
    Large Truck Fatality Rate Declined but Achieving
    Departmental Goals Will Be a Challenge ........................................ 20
EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY................................................................................. 28

EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT .............................................................................................. 31
APPENDIX. AGENCY COMMENTS................................................... 32
                                                                                 1

BACKGROUND

Congress passed MCSIA to enhance Federal safety regulations and to provide
comprehensive oversight of motor carriers and commercial drivers. A key
purpose of MCSIA was to reduce the number and severity of crashes involving
large trucks. To effect this change, Congress created FMCSA and provided the
new agency with enhanced enforcement authority, such as assessing maximum
fines against repeat violators of the safety regulations. Congress authorized about
$2.9 billion to fund FMCSA administrative operations and grant programs for
FYs 2004-2009. FMCSA provides grants to the states for conducting motor
carrier compliance reviews, safety audits, and roadside inspections; improving
commercial driver’s license controls; and collecting and reporting safety
performance data on commercial vehicle crashes and inspections. The Motor
Carrier Safety Assistance Program (MCSAP), which is the major grant program,
was initially funded at $8 million in FY 1984 and increased to $188 million in
FY 2006.

Motor Carrier Enforcement Process. FMCSA and state safety investigators
conduct compliance reviews of a motor carrier’s operations to determine whether
the motor carrier meets Federal safety fitness standards. Based on the results of
the compliance review, the motor carrier is assigned a safety fitness rating of
satisfactory, conditional, or unsatisfactory. If a motor carrier is found to be in
violation of the safety regulations, FMCSA may initiate an enforcement action,
such as levying a civil penalty. FMCSA can also order a motor carrier out of
service if the violations pose an imminent hazard to safety; for failing to pay a
civil penalty within 90 days of the date specified for payment; or for maintaining
an unsatisfactory rating for more than 45 days for motor carriers that carry
passengers or placarded hazardous materials and more than 60 days for all other
motor carriers.

New Entrant Program. MCSIA directed FMCSA to establish regulations to
ensure new motor carriers applying for Federal interstate operating authority are
familiar with the motor carrier safety regulations. FMCSA must ensure a safety
audit of each new entrant motor carrier is completed within the first 18 months of
the motor carrier’s operations. A safety audit is largely an educational tool to
determine a new entrant motor carrier’s knowledge of Federal safety requirements
and to assess its safety management practices. Motor carriers will either pass or
fail the safety audit depending on the level of compliance and the existence of
basic safety management controls. Congress intended that FMCSA provide
direction, guidance, and monitoring of the new entrant program, while the states
conduct the majority of the new entrant safety audits. To this end, Congress has
provided approximately $49 million in new entrant grant funds to the states to hire
and train safety auditors to conduct the safety audits.
                                                                                                                     2

FINDINGS

Trends Show FMCSA’s Higher Emphasis on Enforcement
FMCSA significantly increased its enforcement efforts from FY 1998 through
FY 2004, although a small decline occurred in FY 2004 due to diverting resources
to new entrant safety audits. FMCSA conducted more compliance reviews,
opened more enforcement cases, and increased civil penalties for violations of the
safety regulations. The agency also combined civil penalty settlement agreements
with consent orders8 and expanded its use of out-of-service orders to enhance its
enforcement program. As a result of these efforts, the percentage of rated motor
carriers with a satisfactory safety fitness rating increased from 44 percent in
FY 1998 to 61 percent in FY 2004.

Compliance review activity nearly doubled since FY 1998. The number of
compliance reviews increased significantly since FY 1998, but declined somewhat
in FY 2004, as shown in Table 2. In FY 1998, Federal and state safety
investigators performed 6,312 compliance reviews. In FY 2003, FMCSA and the
states completed 12,096 compliance reviews, an increase of 92 percent from 1998.
However, compliance review activity decreased by 12 percent to 10,658 in
FY 2004. FMCSA officials cited the requirement to conduct safety audits of new
entrant motor carriers as the cause for the decline in compliance reviews. FMCSA
expects the number of compliance reviews to increase accordingly as states take
over responsibility for conducting safety audits.

       Table 2. Compliance Reviews by Federal and State Safety
                   Investigators (FYs 1998-2004)
               Fiscal Year            FMCSA                States          Unknown             Total
                  1998                  4,235              2,032              45                6,312
                  1999                  5,990              2,552              39                8,581
                  2000                 10,121              2,828              26               12,975
                  2001                  9,931              3,116              27               13,074
                  2002                  7,441              2,595              24               10,060
                  2003                  8,901              3,175              20               12,096
                  2004                  7,496              3,158               4               10,658
             Source: MCMIS data as of January 31, 2005

Enforcement actions and satisfactory fitness ratings increased. Enforcement
actions increased as the number of compliance reviews increased. The number of
compliance reviews resulting in enforcement action increased 309 percent from
1,124 cases in FY 1998 to 4,596 in FY 2003, but dropped 17 percent to 3,798 in
FY 2004. In addition, the percentage of motor carriers rated conditional or

8
    A consent order is a negotiated settlement agreement between FMCSA and a motor carrier that commits the motor
    carrier to take specific actions, beyond that required by law, to achieve full compliance with Federal regulations.
                                                                                                                           3

unsatisfactory decreased from 46 percent in FY 1998 to 36 percent in FY 2004.
Table 3 shows the number of compliance reviews completed by FMCSA and the
states with the distribution of safety fitness ratings during this 7-year period.

 Table 3. Distribution of Safety Fitness Ratings (FYs 1998-2004)
 Fiscal Year        Compliance Reviews         Satisfactory       Conditional            Unsatisfactory        Not Rated
    1998                  6,312                    44%               30%                     16%                 11%
    1999                  8,581                    49%               34%                     15%                  2%
    2000                  12,975                   50%               32%                     15%                  2%
    2001                  13,074                   57%               29%                     10%                  4%
    2002                  10,060                   61%               27%                      8%                  4%
    2003                  12,096                   62%               26%                      9%                  3%
    2004                  10,658                   61%               28%                      8%                  3%
 Source: MCMIS as of January 31, 2005


FMCSA significantly increased enforcement actions against motor carriers’
acute and critical violations of the safety regulations. FMCSA increased its
enforcement activity against acute and critical violations during the last 6 years.
Most of these violations relate to significant safety concerns such as hours of
service, use of controlled substances and alcohol, vehicle inspection and
maintenance, and driver qualifications. FMCSA cited most acute and critical
violations during compliance reviews, but did not enforce some violations after
applying the UFA program. Our analysis of violations and resulting enforcement
actions showed the number of violations declined during the last 6 years, but
FMCSA enforced a greater percentage of the violations, as shown in Figure 1.
FMCSA enforced only 2,240 (21 percent) of 10,624 violations during FY 1998,
but enforced 6,957 (56 percent) of 12,422 violations in FY 2004. Civil penalty
assessments increased from $11 million in FY 1998 to $29 million in FY 2004.
           Figure 1. Compliance Review Violations Cited and
                       Enforced by Fiscal Year
                                                     10,658
         2004                                                 12,422                     Compliance Review s
                                             6,957
                                                            12,096                       Violations Found
         2003                                                          14,421
                                                   7,865                                 Violations Enforced
                                                   10,060
         2002                                                 12,853
                                           6,148
                                                                13,074
         2001                                                                      17,069
                                     5,140
                                                               12,975
         2000                                                                                  19,635
                                 3,999
                                             8,581
         1999                                                        13,963
                          2,610
                                   6,312
         1998                                        10,624
                         2,240
                0                 5,000               10,000                    15,000               20,000


      Source: MCMIS and EMIS Data as of January 31, 2005
                                                                                        4

Civil penalty settlements fluctuated.          FMCSA’s process of negotiating
enforcement cases with motor carriers sometimes resulted in a reduced penalty
through a settlement agreement, with an average of 14 percent settled since
FY 1999. FMCSA often combined settlement agreements with consent orders to
offset the penalty reductions. In our opinion, this practice is a good tool to achieve
compliance because it can be used to compel motor carriers to take actions to
improve safety beyond what is required by existing regulations. The percentage of
enforcement cases with settlement agreements declined from 26 percent in
FY 1998 to 7 percent in FY 2000, but has gradually increased to 19 percent in
FY 2004, as shown in Table 4.

                     Table 4. Enforcement Cases Settled

   Fiscal Year      Enforcement Cases      Settled Cases     Percent of Cases Settled
      1998                 2,680                703                     26
      1999                 2,921                628                     21
      2000                 4,486                321                      7
      2001                 5,524                420                      8
      2002                 5,950                609                     10
      2003                 5,061                774                     15
      2004                 6,459               1,252                    19
      Total               33,081               4,707                    14
  Source: EMIS as of January 31, 2005

In addition, the amount of the average settled civil penalty decreased when
compared to the original penalty assessment. Civil penalty settlements increased
from 83 cents on the dollar assessed in FY 1998 to 96 cents in FY 2000, but
gradually decreased to 87 cents in FY 2004, as shown in Table 5. In our opinion,
this decline is not a significant concern because civil penalty assessment and
settlement amounts nearly tripled during the same period.

        Table 5. Civil Penalty Assessments and Settlements
   Fiscal Year     Total Assessments     Total Settlements    Percent of Assessment
      1998          $10.9 million         $9.1 million                  83
      1999          $11.3 million         $9.9 million                  87
      2000          $23.8 million         $22.9 million                 96
      2001          $26.7 million         $25.5 million                 95
      2002          $28.4 million         $26.3 million                 93
      2003          $25.6 million         $21.9 million                 85
      2004          $29.0 million         $25.2 million                 87
   Source: EMIS as of January 31, 2005

FMCSA placed more motor carriers out of service. Since 1998, FMCSA
substantially expanded its use of out-of-service orders. FMCSA uses three types
                                                                                                                      5

of out-of-service orders to achieve compliance with the safety regulations. A
motor carrier can receive an out-of-service order for maintaining an unsatisfactory
safety fitness rating for more than 60 days, failing to pay a civil penalty after
90 days, or posing an imminent hazard to safety. Figure 2 shows out-of-service
orders for unsatisfactory ratings and failure to pay9 civil penalties have generally
increased each year. In contrast, imminent hazard out-of-service orders, which are
normally used as a last resort, have remained flat.

                     Figure 2. Out-of-Service Orders (FYs 1998-2004)
     2004                   425            2004                      1,378          2004           2
     2003                354               2003                   1,178             2003       0
     2002        204                       2002             697                     2002       0
     2001       151                        2001       25                            2001           2
     2000       34                         2000       0                             2000               4
     1999       29                         1999       0                             1999           2
     1998       39                         1998       0                             1998               5

            0         200      400   600          0         500    1,000    1,500          0               10   20   30
                     Unsat Rating                          Failure to Pay                          Imminent Hazard

    Source: EMIS data as of December 7, 2004


FMCSA’s Repeat Violator Policy Needs Strengthening
FMCSA increased its civil penalty structure in accordance with congressional
mandates, assessed stronger penalties against motor carriers who violated the
safety regulations, and implemented a policy to place motor carriers out of service
for delinquent payment of civil penalties. The agency also revised the definition
of imminent hazard, implemented follow-up compliance reviews and monitoring
of motor carriers with less than satisfactory safety fitness ratings, implemented
policies and procedures for closing enforcement cases, and effectively reduced its
backlog of open enforcement cases. FMCSA has also started important initiatives
to reduce fraud in the CDL program and to re-evaluate its processes for
conducting compliance reviews. Although FMCSA made progress in some areas,
it was slow in fully implementing our 1999 audit recommendation to strengthen its
enforcement against repeat violators. Further action is needed to close a loophole
that allows motor carriers who repeatedly violate the motor carrier safety
regulations to avoid maximum civil penalties allowed by law.




9
    In December 1999, MCSIA authorized FMCSA to place out of service those motor carriers who fail to pay civil
    penalties within 90 days. In 2001, FMCSA started issuing out-of-service orders for failure to pay civil penalties.
                                                                                  6

Six-Year Window for Accruing Violations Under FMCSA’s Repeat Violator
Policy Delayed Up to 4 Years
Section 222 of MCSIA requires the Secretary to assess the maximum civil penalty
for each violation when a motor carrier or individual is found to have committed a
pattern of violations of critical or acute regulations. On September 8, 2000,
FMCSA revised its enforcement policy to implement Section 222. The policy,
known as the “three strikes rule,” defined a pattern of violations as three
enforcement cases within 6 years that consists of two closed enforcement cases
followed by new violations, all of which involve the same regulation. However,
FMCSA implemented the three strikes rule without publishing it in the Federal
Register. In two decisions issued in November 2003, the FMCSA Chief Safety
Officer ruled that FMCSA had failed to properly implement the September 2000
policy and give motor carriers sufficient notice of how subsequent violations of
the same or related regulations would trigger the maximum penalty. In response
to the rulings, in March 2004, FMCSA inserted new language into its Notice of
Claim form to cover the motor carrier’s admission of liability. Consequently,
violations assessed in enforcement cases closed before March 2004 that do not
meet the revised policy criteria will not be considered in establishing a pattern of
violations. In effect, the 6-year timeframe for accruing violations was delayed by
up to 4 years, and motor carriers who committed violations from September 2000
to March 2004 will essentially be given a clean slate.

FMCSA published its clarified policy             in   the   Federal   Register   on
December 28, 2004. The policy stated that:

   •   violations associated with enforcement cases closed before
       September 8, 2000 are not considered in applying the three strikes rule;

   •   previous enforcement cases would be required to include: (1) an explicit
       adjudicatory finding of a violation by the FMCSA Assistant Administrator
       or a Department of Transportation Administrative Law Judge, (2) an
       express admission of liability by the motor carrier or individual in reply to
       the FMCSA Notice of Claim and in a settlement agreement, or (3) a Final
       Agency Order issued by FMCSA under 49 CFR 386.14(e), based on failure
       to reply to the Notice of Claim; and

   •   payment of a civil penalty or a settlement agreement for a Notice of Claim
       lacking language admitting liability would not be considered a prior
       violation for purposes of applying Section 222.

As of December 7, 2004, FMCSA data showed FMCSA applied a Section 222
maximum penalty against 146 motor carriers.          However, we identified
71 additional motor carriers that were not assessed a maximum penalty even
                                                                                                                              7

though each had violated the same safety regulation at least three times since
September 8, 2000. We attribute these instances to the timing of the clarification
policy. Although we did not analyze whether a maximum fine would have
prevented crashes, we reviewed the crash records of the 71 motor carriers to
determine the extent and the nature of crashes involving these carriers. Our
review found that, during this 4-year period, 50 of the 71 motor carriers were
involved in 215 crashes resulting in 13 fatalities and 152 injuries. These crashes
involved motor carriers ranging from owner-operators to those with up to
57 power units. It is our opinion that aggressive enforcement of the regulations, as
intended by Congress, could have a positive impact on the safety performance of
the industry.

Loophole in Three Strikes Rule Allows Repeat Violators to Escape
Maximum Fines
FMCSA’s three strikes enforcement policy was undermined by a loophole created
by adherence to a statute that limits the number of enforced violations due to
consideration of several factors such as a motor carrier’s ability to pay a fine.
Because only adjudicated violations are considered under the three strikes rule,
some acute and critical violations are not counted in the pattern of violations. As a
result, motor carriers who repeatedly violate the safety regulations may not be
assessed the maximum penalty allowed by law. Closing this loophole would
require publishing another clarification to the repeat violator policy, but it would
provide FMCSA an opportunity to further deter significant safety violations.

FMCSA’s Uniform Fine Assessment (UFA) program calculates recommended
penalty ranges for motor carriers who violate the safety regulations. The UFA
program was designed to ensure fair and consistent application of the safety
regulations and preclude actions that are arbitrary and capricious.10 It requires
safety investigators to enforce only those violations that will fit into the
recommended penalty range. As a result, some violations are not assessed a civil
penalty, and are not counted in determining whether a motor carrier has committed
a pattern of violations in accordance with Section 222.

For example, between September 2000 and October 2004, 533 motor carriers
violated either Part 395, Drivers Hours of Service, or Part 382, Controlled
Substances and Alcohol Use and Testing, at least three and up to six times. Our
analysis showed that 67 of these motor carriers violated both parts three or more
times. However, because some of the cited violations were not documented, and
thus not enforced on the Notice of Claim, only 33 (6 percent) of the 533 motor

10
     In calculating the recommended penalty range, the UFA program considers legislative criteria specified in Title 49,
     United States Code, Section 521(b): the nature, circumstances, extent, and gravity of the violation; degree of the
     motor carrier’s culpability; ability of the motor carrier to pay the fine; effect of the fine on the motor carrier’s ability
     to stay in business; history of prior offenses; and such other matters as justice and public safety may require.
                                                                                   8

carriers received the maximum penalty. Although we did not analyze whether a
maximum fine would have prevented crashes, during the same time period, 383 of
the 533 motor carriers were involved in 2,060 crashes that resulted in 123 fatalities
and 1,336 injuries.

Although it is important to consider a motor carrier’s ability to pay a fine, this
principle should not override congressional concerns about repeat violators.
Congress stated its concerns regarding repeat violators by including language in
MCSIA requiring The Secretary to “assess the maximum civil penalty for each
violation of a law…by any person who is found to have committed the same or a
related violation of critical and acute regulations….” In addition, SAFETEA-LU
authorizes suspension or revocation of operating authority for motor carriers with
a pattern of noncompliance.

In our opinion, to eliminate this loophole and still meet the intent of Section
521(b), FMCSA should, at its discretion, consider assessing a no-fine penalty or
using another appropriate mechanism to communicate to the motor carrier that
future violations may result in a maximum fine. This action would ensure that
motor carriers receive a fair civil penalty within the UFA range, but would also
put them on notice in regards to the three strikes rule and would ensure that all
third violations are adequately enforced with a maximum penalty to provide a
strong deterrent to future violations.

The potential for maximum fines could also encourage motor carriers to upgrade
their safety policies and practices to prevent repeat violations of significant
regulations such as hours of service. For example, the hours of service regulations
were violated over 30,000 times since FY 1998 and remain one of the most
frequently violated regulations, accounting for 30 percent of all acute and critical
violations. With the passage of SAFETEA-LU, Congress strengthened the
penalties for multiple violations of recordkeeping and falsification of documents.
Specifically, the legislation increases the maximum civil penalty per violation to
$1,000 for “not truthfully maintaining a logbook” and $10,000 for “falsification of
a logbook.”

In our opinion, regardless of the driving limits in place, unscrupulous motor
carriers will have an incentive to violate the rules, especially if FMCSA does not
assess the maximum penalties when warranted. Since January 1998, OIG criminal
investigations have resulted in 102 indictments, 73 convictions, and $1.7 million
in recoveries for egregious cases in which motor carriers systematically forced
drivers to exceed the limits imposed by the regulations. In our 1999 audit, we
supported the adoption of satellite technology for monitoring motor carriers’
compliance with hours of service rules. The courts have directed FMCSA to
reconsider its rescission of a proposed rulemaking requiring the use of electronic
                                                                                                          9

devices on all large trucks to record driving time and provide key evidence for
enforcement efforts.

Quality of Motor Carrier Data Needs Improvement
FMCSA fully implemented two, but only partially implemented four of our six
1999 audit recommendations to improve the quality of motor carrier census, crash,
and inspection data. FMCSA took alternative actions to foster improvements in
state collection and reporting of quality crash and inspection data, including
amending the MCSAP grant allocation formula, establishing an incentive funding
program for improved data, and developing a comprehensive data quality plan to
ensure reliable data for oversight of safety programs. Despite FMCSA’s actions,
problems with crash and inspection data quality remain, and FMCSA has not
taken sufficient action to achieve full updates of motor carrier census data on
drivers and power units, train local enforcement agencies about quality data
reporting, standardize crash data requirements and collection procedures, and
develop legislative recommendations for the crash causation study.

Census Data Updates from Existing Motor Carriers are Needed
The granting of interstate operating authority is contingent on motor carriers
providing census data on the number of drivers they employ and commercial
vehicles (power units) they own or lease. MCSIA required interstate motor
carriers to periodically report updated census data to FMCSA. In November 2000,
FMCSA promulgated rules to require motor carriers who were active on
December 26, 2000 to update their census forms every 2 years. Although FMCSA
has enforced this requirement for new entrant motor carriers, it has not sufficiently
enforced the rule for all motor carriers.

Our February 2004 audit11 reported that about 42 percent of active interstate motor
carriers had not met a congressional mandate to update census data every 2 years;
and that about 15 percent of the motor carriers had “zero” drivers and 11 percent
had “zero” power units. In its response to the February 2004 audit, FMCSA
claimed that 40 percent of motor carriers were updating their census data online,
and that it sent reminder notices to motor carriers requiring them to file biennial
updates, with potential civil penalties for failure to comply. FMCSA also stated
that it would verify and update new entrant motor carriers' census information
during the new entrant safety audit process.

FMCSA’s process for registering new entrant motor carriers is working well. Our
analysis of census data as of January 31, 2005 found that substantially all new
motor carriers registering for operating authority are reporting the required data.
Our review of approximately 87,000 new entrant motor carriers registered since
11
     OIG Report Number MH-2004-034, “Improvements Needed in Motor Carrier Safety Status Measurement System,”
     February 13, 2004.
                                                                                               10

January 1, 2003 showed that only 432 motor carriers reported “zero” drivers and
397 motor carriers reported “zero” power units.

Additionally, FMCSA made progress in obtaining updated census information
from existing motor carriers, but more follow-up and aggressive enforcement
action is needed to ensure that all motor carriers are reporting updated
information. As of January 31, 2005, approximately 192,000 (more than
27 percent) of 702,277 active motor carriers had not updated their census data
since August 2002. Also, 77,295 (11 percent) of the 702,277 motor carriers had
“zero” drivers and 59,561 (8 percent) had “zero” power units. Table 6 compares
census reporting metrics for January 2003 and January 2005. We noted that motor
carriers who did update their census information still reported incomplete data.
For example, of the 85,586 motor carriers with “zero” drivers and power units, we
identified 20,065 motor carriers with “zero” drivers and 16,623 with “zero” power
units had updated their information since August 2002.

             Table 6. Motor Carriers with Outdated or Incomplete
                                Census Data
                   Motor Carriers With:                  January 2003           January 2005
                   Outdated Data                             42%                    27%
                   “Zero” Drivers                            15%                    11%
                   “Zero” Power Units                        11%                    8%
                   Source: MCMIS as of January 31, 2003 and January 31, 2005

FMCSA has not aggressively pursued enforcement actions against motor carriers
who did not submit new or updated census data. Although we identified over
192,000 motor carriers who did not have updated census data on record, FMCSA
filed only 20 enforcement cases since January 2002, with an average claimed fine
of $435. The enforcement actions included 7 cases for “Failing to File MCS-150
Before Operating” and 13 cases for “Failing to File MCS-150 Every 24 Months.”12

FMCSA cannot effectively rank the safety performance of motor carriers without
complete and accurate census information. In the worst case, motor carriers with
incorrect census records showing “zero” power units can have crashes, including
fatalities, without it negatively impacting their safety ranking. Without aggressive
enforcement or some other action to induce compliance, motor carriers will have
little incentive to comply with the regulation and will continue to avoid reporting
complete and accurate information. Although the majority of the 192,000 existing
motor carriers that had not updated their census data are on record as having one
to six power units, several thousand larger motor carriers, including three on
record as having more than 5,000 power units.

12
     An MCS-150 form is a vehicle for motor carriers to report census data to FMCSA.
                                                                                                                   11


FMCSA should consider using civil penalties or implementing other measures to
increase compliance with the census data updating requirement. Taking this
action is especially important because the census data are used by SafeStat to rank
the safety performance of motor carriers and target them for compliance reviews
and inspections. Without this critical data, FMCSA cannot effectively identify all
high-risk motor carriers. The importance of data quality was recently reiterated by
the Chairman of the House Subcommittee on Highways, Transit, and Pipelines in
requesting that OIG perform a follow-up audit of the quality of SafeStat data.
When we conduct this follow-up audit, we will further review FMCSA’s steps to
improve compliance with census updating requirements.


Data Quality Has Improved, but Significant Problems Remain
In March 2000, FMCSA promulgated a final rule that amended the basic MCSAP
grant allocation formula and established an incentive funding program to reward
states for achieving reductions in fatality crashes and rates and for making
improvements in quality of program data.13 States that do not report crash and/or
inspection data within agency guidelines do not qualify for full incentive funding.
Between FYs 2001 and 2004, FMCSA provided over $43.5 million in MCSAP
incentive grants to the states, and the number of states qualifying for incentive
funding has increased to the point where all states received a portion of incentive
funding allocations for FYs 2003 and 2004.

Our February 2004 audit reported problems associated with the completeness and
accuracy of crash and inspection data reported to FMCSA by the states. For
example, 6 of 51 states did not report any crashes for a 6-month sample period;
and one state reported fatal crashes to FMCSA but did not report 5,816 non-fatal
crashes that occurred in 2001. Even when crash and inspection data were
reported, errors or omissions occurred in an estimated 13 percent of
21,225 crashes and an estimated 7 percent of 1.02 million inspections reported
during the 6-month period. Based on the data problems we identified, we
recommended that incentives be expanded to promote improvement in the
completeness and accuracy of data reporting. FMCSA responded to our audit by
offering alternative actions to improve the quality of crash and inspection data
reporting by the states, such as:

       • developing a comprehensive data quality plan. FMCSA committed to
         implementing a data quality improvement plan to ensure reliable data are

13
     States may earn incentive funding for safety and data improvements in five categories: reduction in fatal crashes
     involving large trucks, reduction in the large truck fatal crash rate, uploading time for commercial motor vehicle
     crash reports within 90 days, uploading time of commercial motor vehicle inspection reports within 21 days, and
     verification of commercial driver’s licenses during all roadside inspections.
                                                                                                  12

       collected and made available for all FMCSA safety programs. The data
       quality plan focuses on six objectives: (1) evaluating the completeness,
       timeliness, accuracy, and consistency of state-reported crash and inspection
       data; (2) monitoring state reporting of quality crash and inspection records
       and working with states to resolve problems; (3) supporting and following
       the Department’s guidelines, policies, procedures, and recommendations
       for ensuring data quality; (4) developing data quality improvement
       initiatives to ensure reliable data are collected; (5) implementing a data
       quality module on FMCSA’s Analysis and Information Online website to
       allow states improved access to data; and (6) providing an electronic
       system, called DataQs, for filing and tracking public challenges to the
       quality of Federal and state data FMCSA releases to the public. According
       to FMCSA, DataQs processed more than 5,700 challenges with over
       74 percent resulting in data corrections.

   • awarding additional grants to 28 states that submitted data quality
     improvement plans for improving the collection, reporting, and analysis of
     truck and bus crash data. The FMCSA Division Administrator in each state
     must endorse the respective plans before the grant can be awarded.

   • providing additional information to assist states in reporting truck and bus
     crashes. Specifically, FMCSA clarified the criteria for selecting truck and
     bus crashes that must be reported, provided answers to frequently asked
     questions to aid states in deciding which crashes to report, and conveyed
     procedures for reporting crashes when carrier information is not available.

Although we did not update the substantial testing of data quality we completed
during our February 2004 audit, we did review FMCSA metrics for timeliness
(average time to enter and upload data to MCMIS) and accuracy (percentage of
non-match data) to determine whether improvements were made. Table 7 shows
that FMCSA and the states achieved a noticeable improvement in crash and
inspection data timeliness and accuracy during the 2-year period since FY 2002.

          Table 7. Data Quality Improvements Since FY 2002
      Timeliness (T) and Accuracy (A) Metric                FY 2002       FY 2004   Percent Decrease
Average Time to Enter and Upload Crash Data (T)             158 days      92 days          42
Average Time to Enter and Upload Inspection Data (T)         37 days      18 days          51
Non-Match Crash Data (A)                                      15.6%        14.2%            9
Non-Match Inspection Data (A)                                 5.8%          3.3%           43
Source: FMCSA data for FY 2002 as of April 2004 and FY 2004 as of March 2006


We also reviewed FMCSA’s monitoring of the quality of state data reporting.
Every 3 months, FMCSA evaluates and rates the quality of state-reported crash
and inspection data against FMCSA standards for completeness, accuracy,
                                                                                  13

timeliness, and consistency. As of December 23, 2004, only 12 states were rated
poor, and the rating had improved for 6 states and declined for only 1 state since
the previous evaluation on September 24, 2004.

We recognize FMCSA has completed a number of actions with the states to
address problems with data quality, and these actions have achieved a certain
measure of success. However, significant data quality problems still remain, such
as untimely reporting, missing crash information, underreported moving
violations, and inaccuracies in crash and inspection records. The challenge to
obtain better quality data will require continued and persistent effort and diligence
by both FMCSA and the states.

Training On Crash Data Reporting Is Needed To Track Attendance And
Target States With Reporting Problems.
MCSIA required the Secretary to set a goal for improving the quality and
effectiveness of databases by ensuring that all states accurately and promptly
report complete safety information, and to identify training needed for timely and
effective accomplishment of the goal. In response, FMCSA established
performance measures to track states’ completeness, accuracy, and timeliness in
reporting crash and inspection data and is using the measures to evaluate
improvements made by the states over time. FMCSA also developed a training
course on collection and reporting of crash data to improve the quality of data
reported by state and local law enforcement agencies. Because training courses
specifically designed to improve data quality are essential, FMCSA must ensure
that all law enforcement officials have access to and complete its training courses.

Our February 2004 audit reported that data quality problems limited the
effectiveness of, and introduced bias into, the motor carrier ranking process. The
problems included incomplete crash reporting and late or incomplete inspection
reporting, particularly reports on serious moving traffic violations, by state and
local law enforcement jurisdictions. FMCSA must rely not only on state law
enforcement officials but also on numerous county and municipal authorities to
submit crash reports that are consistent with MCSAP requirements and standards.
However, law enforcement officials have not adequately interpreted the crash data
elements and attributes FMCSA needs to identify, monitor, and prioritize high-risk
motor carriers for oversight. For example, law enforcement officers may not
know how to distinguish a commercial vehicle from a non-commercial vehicle.

To improve crash data, FMCSA and the states developed and coordinated a
training course through the National Institute for Safety Research. The training
course is customized to each state’s crash report and incorporates the National
Governors’ Association data elements for recording crashes involving large trucks
and buses. As of February 28, 2005, more than 600 state, county, and municipal
                                                                                  14

law enforcement and support personnel had been trained on how to collect
commercial vehicle crash data, and FMCSA plans to train at least 1,000 additional
personnel each year. State officials who complete this training will provide the
training to other state personnel. For example, California plans to train about
6,000 crash investigating officers using the FMCSA training materials.

FMCSA has achieved some progress in training local law enforcement officials,
but their efforts have been impeded by the availability of law enforcement officers
and limited training slots. State and local governments generally have a limited
number of law enforcement personnel who have other duties in addition to traffic
and motor carrier enforcement. The officers’ workload makes it difficult to attend
scheduled sessions of the crash data collection course. In addition, some states
occasionally reserve training slots for state law enforcement officers, thus limiting
the number of available slots for local law enforcement officers. To alleviate this
problem, FMCSA is developing a supplemental website where law enforcement
personnel can access the training materials at their convenience.

We applaud FMCSA’s efforts to develop on-site and web-based training to
improve the quality of crash and inspection data reported by state and local law
enforcement agencies. However, there are potentially hundreds of thousands of
law enforcement officers and support personnel nationwide who could benefit
from this training course. To ensure that these individuals receive the training,
attendance should be tracked against established targets and focused on states that
are not meeting FMCSA’s primary goals and measures for quality crash data.

Crash Data Collection and Reporting is Not Standardized
In reporting crash data, states provide the basic information necessary for highway
and traffic safety oversight. The data are used to identify traffic safety problems,
establish goals and performance measures, track the progress of safety programs,
and evaluate safety countermeasures. However, the use of state crash data is often
hindered by the lack of uniformity between and within states and local law
enforcement jurisdictions. Differences persist in the states’ treatment of certain
elements of crash reporting, such as how reportable crashes are recorded and what
definitions are specified for commercial vehicles. Although the states have
incorporated the mandatory data elements endorsed by the National Governors’
Association (NGA) into their crash forms, many states did not correctly interpret
what data were to be collected. Inaccurate interpretation and incomplete reporting
limit interstate comparisons of data and skew analytical results.

Section 225 of MCSIA directed FMCSA and the National Highway Traffic Safety
Administration (NHTSA) to cooperate in improving collection and analysis of
state crash reporting. FMCSA and NHTSA spent several years planning and pilot
testing the Commercial Vehicle Analysis Reporting System (CVARS), a
                                                                               15

nationwide automated data system with electronic coding of crashes, but
concluded that the project was neither feasible, affordable, nor effective. After
discontinuing CVARS, the agencies finalized and signed a memorandum of
understanding (MOU) in February 2003 to improve the existing crash data
collection process and database. FMCSA assumed project planning and
implementation, and NHTSA administered the remaining CVARS grants, training
funds, and cooperative agreements with the states.

Following the signing of the MOU, the agencies initiated a Crash Data
Improvement Project Plan with a short-term goal of improving the completeness
of crash reporting for targeted states. The long-term goal was for all states to
report complete, accurate, and timely data on all crash elements for at least
95 percent of all eligible large truck and bus crashes by the end of FY 2010. Some
progress was made in improving crash data collection. For example, 11 states that
were awarded CVARS grants showed a marked increase in the completeness of
crash data reports and there was a 25-percent increase in the number of truck and
bus crashes entered into MCMIS in 2004. However, more improvement is
needed, especially in standardizing crash data and state crash forms. According to
FMCSA, 23 states were revising their crash forms as of February 28, 2005.

In response to requests by states interested in improving and standardizing their
crash data, FMCSA, NHTSA, the Federal Highway Administration, and the
Governors’ Highway Safety Association developed the Model Minimum Uniform
Crash Criteria (MMUCC).            The MMUCC is a voluntary guideline of
recommended crash data elements and attributes to provide standardized crash
data to improve highway safety. NHTSA is reviewing state crash forms to
determine compliance with the MMUCC and has hired a contractor to evaluate
state crash data systems; and FMCSA has posted an online data quality map that
indicates the quality of states’ crash and inspection data. Although we did not
validate the methodology for the quality ratings or the validity of the data, a
FMCSA review of state crash forms, data elements and attributes, and crash
selection criteria preliminarily rated 65 percent of the states “poor.” FMCSA’s
review should help it to make further recommendations to the states that would
improve the crash forms and guidelines.

Legislative Recommendations for Crash Causation Study Not Finalized
Section 224 of MCSIA required a comprehensive study to determine the causes of
and contributing factors to crashes that involve commercial motor vehicles.
MCSIA also required the Secretary to promptly transmit the results of the study,
with any legislative recommendations, to Congress. At a cost of $19 million, the
Large Truck Crash Causation Study was conducted as a joint project using
FMCSA-funded state truck inspectors and NHTSA National Automotive
Sampling System researchers. Between April 2001 and December 2003, the joint
                                                                                 16

team collected data on a sample of 985 serious large truck crashes in randomly
selected sites across the nation. Data on all 985 crashes were uploaded to a
relational database created and maintained by the Volpe National Transportation
Systems Center. FMCSA, NHTSA, and Volpe Center officials conducted edit,
consistency, and quality checks of the data between January 2004 and June 2005.
The database should generate reports on issues such as fatigue, vehicle condition,
and drug and alcohol use. FMCSA transmitted a report to Congress in March
2006 and is developing milestones for completing analyses of key safety problem
areas and making recommendations to Congress. It expects to complete milestone
development for the recommendations in June 2006.

New Entrant Program Needs Further Oversight and Study
As Section 210 of MCSIA directed, FMCSA established regulations and
operational procedures specifying minimum requirements to ensure that new
motor carriers applying for Federal interstate operating authority are familiar with
the motor carrier safety regulations. FMCSA’s Interim Final Rule, which became
effective on January 1, 2003, outlined the new entrant safety assurance process for
all new motor carriers domiciled in the United States and Canada. In accordance
with the rule, FMCSA and the states must monitor a motor carrier’s safety
performance through roadside inspection and crash data and conduct a safety audit
within the first 18 months of operation. As intended by Congress, FMCSA will
direct, guide, and monitor the program, but will rely on the states to conduct the
majority of the safety audits. With the exception of new entrant motor carriers
domiciled in non-participating states and Canada, FMCSA plans to fully transfer
responsibility for safety audits to the states by December 2006. At the time of our
analysis, Maine and Oregon were the only states not participating in the program.

Over 3 years, Congress provided approximately $49 million in grant funds to the
states for conducting safety audits. In FY 2003, FMCSA distributed $7.4 million
in MCSAP basic and high priority funds to selected states for implementing the
new entrant program. In FY 2004, FMCSA distributed $24.4 million in MCSAP
and Federal-aid highway funds for the new entrant program. In FY 2005, FMCSA
distributed $17 million in MCSAP new entrant grant funds. As an interim
measure, because of the 2-year delay in passing SAFETEA-LU, FMCSA
incrementally allocated grant funds for FYs 2003 and 2004 to the states. The
incremental funding process delayed states’ ability to hire and train safety
auditors. As more funds were made available, states gradually hired and trained
safety auditors and assumed a more substantial role in conducting safety audits.

Safety Audits Have Been Timely
New motor carriers that register as new entrants must receive a safety audit within
the first 18 months of operation. From January 1, 2003 to November 1, 2005,
123,104 new entrant motor carriers had registered with FMCSA as new entrants.
                                                                               17

Our analysis of registration rates during the last 2 years estimated that at least
43,000 motor carriers will register each year, but the number of registrants may
trend upward. Approximately 35,000 and 50,000 new entrants registered in
calendar years 2003 and 2004, respectively, which is consistent with FMCSA's
estimate of 45,000 new entrant registrants per year. In addition, FMCSA has
taken steps to ensure that new motor carriers are validated as new entrants and to
clean up its database of new entrant motor carriers to allow for efficient
contacting, scheduling, and performance of timely safety audits.

Initially, FMCSA conducted the majority of safety audits. As funding increased,
states gradually increased their production as they hired and trained more safety
auditors. Based on FMCSA data as of November 1, 2005, state safety auditors
had completed about 78 percent of the 66,373 audits. Our analysis showed the
trend in completing safety audits is increasing with time. During the first 18
months of the program, January 2003 through June 2004, 25,975 safety audits
were completed. During the 18-month period ending December 2004, 38,457
safety audits were completed. During the 18-month period ending November
2005, 46,874 audits were completed.
                                                                                                                       18


       Figure 3. New Entrant Motor Carriers Awaiting Safety Audit
                       (as of November 1, 2005)
      Months
        0                                                                 5,072
        1                                                          4,561
        2                                                             4,960
        3                                                                                               8,889*
        4                                                         4,455
        5                                                    4,135
        6                                                 3,818
        7                                                  3,905
        8                                        2,955
        9                                2,296
       10                           2,007
       11                         1,793
       12                   1,307
       13                1,163
       14                1,054
       15             818
       16          640
       17        445
       18       314
      +18          663

            0      1,000         2,000      3,000        4,000     5,000      6,000     7,000      8,000       9,000
                                                           Carriers

       Source: OIG Analysis of MCMIS data
       *8,889 includes 4,751 previously registered motor carriers reinstated by FMCSA on July 10, 2005.



As of November 1, 2005,14 66,362 of 123,104 new entrant motor carriers had
received a safety audit. Our analysis showed 663 motor carriers had not been
audited within 18 months as required, as shown in Figure 3 above.

However, we identified 4,025 new entrant motor carriers who were not audited
within 18 months of their initial request for registration with FMCSA. According
to FMCSA, this occurred due to gaps between the date of initial request for
registration and the date of entry of motor carriers into the new entrant program.
14
     We identified new entrant motor carriers registered between January 1, 2003 and November 1, 2005 by analyzing
     motor carrier census data in MCMIS. We selected motor carrier records coded as current new entrants and those that
     exited the program after a safety audit or compliance review. We excluded records coded as inactivated new
     entrants that had their authority revoked for going out of business, changing from interstate to intrastate operations,
     refusing to schedule a safety audit, or other reasons.
                                                                                  19

The gaps occur when motor carriers resubmit their registration data after being
inactivated by FMCSA for failure to contact or otherwise correspond with
FMCSA to schedule a safety audit. In July 2005, FMCSA officials decided that
they would not inactivate such motor carriers. FMCSA’s decision to reclassify
4,751 motor carriers in its database from “inactive” to “active” created a bubble of
new entrant motor carriers awaiting an audit – a number nearly twice as large as
any other month in our analysis. Our analysis found these motor carriers among
8,889 motor carriers added to the new entrant program in the month of July 2005
but not audited after 3 months. In our opinion, FMCSA needs to closely monitor
safety audit progress to ensure these audits are completed timely.

Effectiveness of New Entrant Program Needs Further Study
Based on both our analysis and FMCSA’s analysis of its safety performance
ranking data, new entrant motor carriers were not significantly safer than new
motor carriers that registered during the 2 years before the start of the new entrant
program, nor did crash rates show a significant change. Our analysis showed that
motor carriers subject to the new entrant program performed slightly better, with a
higher average ranking (21,224 of 45,500 ranked or 47th percentile) when
compared to new motor carriers that registered during the 2 years before the start
of the new entrant program (19,982 of 43,440 ranked or 46th percentile).

FMCSA’s analysis showed no difference in the first year crash rates of new
entrant motor carriers and new motor carriers who were not subject to the new
entrant program the previous year. FMCSA has proposed to change the pass/fail
criteria for safety audits, as its data show the failure rate was less than 1 percent
(309 of 40,118 audits conducted) as of January 2005. In our opinion, FMCSA
needs to continue monitoring new entrant motor carriers to determine whether
they would operate more safely, perhaps through tougher safety audit criteria,
enforcement of egregious violations, and/or increased roadside inspections.

One MCSIA Rulemaking Remains Outstanding
Congress mandated that FMCSA establish rulemakings under 11 sections of
MCSIA, and FMCSA identified 18 additional sections of MCSIA for which
rulemakings should be established. As of September 22, 2005, FMCSA had
issued 27 and NHTSA issued 1 of the 29 rulemakings. FMCSA’s one outstanding
MCSIA-required rulemaking, which requires that the CDL be combined with the
medical certificate, is several years behind schedule. FMCSA has set a late 2006
milestone for completing the NPRM for this issue.

Although not covered under the scope of this audit, FMCSA also made progress in
completing significant non-MCSIA rulemakings, although a number of these
                                                                                                         20

remain outstanding on its agenda. A 2004 OIG audit15 showed that FMCSA had
19 significant rulemakings outstanding as of June 30, 2004. Our current review
found that FMCSA had 11 significant rulemakings outstanding as of September
30, 2005.

Combining the CDL and Medical Certificate
The Department’s Legislative Implementation Plan set a deadline of September
2000 for completing the rulemaking for combining the CDL and medical
certificate, but FMCSA has made little progress in meeting the deadline. The
increasing number of commercial drivers and the prevalence of medical conditions
related to an aging population will have a detrimental effect on the health and
safety of commercial drivers and overall highway safety. However, FMCSA
officials stated that the medical certificate rule by itself would not be a panacea for
this safety issue. The rule will make enforcement of the safety regulations more
efficient for inspection officials, but will not eliminate fraud or ensure the health
and safety of commercial drivers.

FMCSA’s medical certificate rulemaking is only one element in its planned 5-year
effort to enhance the commercial driver medical program.            Specifically,
SAFETEA-LU requires a medical program to include (1) a Medical Review Board
of expert medical professionals advising FMCSA on the development of driver
qualification standards and guidelines and (2) a National Registry of medical
examiners certified to comply with FMCSA medical standards and policies. Until
FMCSA develops the overall medical program, unqualified drivers will be able to
shop around for a physician to certify that they are medically fit to drive a
commercial vehicle.

Querying CDLIS and NDR Before Issuing Driver’s Licenses
In July 2005, NHTSA issued a final rule requiring states to check both the CDLIS
and the NDR before issuing any motor vehicle license. Up to half of the states are
not following MCSIA provisions requiring a check of both informational
databases. Consequently, states run the risk of failing to identify ineligible drivers
who could successfully use the licensing process of one state to evade the
penalties of a criminal conviction or license suspension by another state.

Large Truck Fatality Rate Declined                                        but      Achieving
Departmental Goals Will Be a Challenge
The absolute number of large truck-related fatalities decreased from 5,395 in 1998
to 4,939 in 2002, but increased to 5,036 in 2003 and 5,190 in 2004. The rate of
large truck-related fatalities per 100 million Vehicle Miles Traveled (VMT)

15
     OIG Report Number SC-2005-031, “Follow-Up Audit of Department of Transportation’s Rulemaking Process and
     Tracking System,” December 21, 2004.
                                                                                            21

decreased 11 percent from 2.57 in 2000 to 2.29 in 2004, the last year for which
official figures are available. Over the next 4 years, to achieve its goal of 1.65
deaths per 100 million VMT, FMCSA must reduce the current rate of 2.29 by
more than two and a half times the reduction achieved during the previous 4 years.
Assuming VMT remain constant, meeting this goal would save about 1,450 lives
between 2005 and 2008.

Figure 4 compares the most recent 7-year trend of large truck-related fatalities and
fatal crashes in relation to large truck VMT with the preceding 7-year period.
From 1991 to 1997, there was a general correlation between increased large truck
VMT and increased fatal crashes and fatalities. From 1998 to 2004, the general
trend improved, with a reduction in fatal crashes and fatalities during a period of
rising large truck VMT.

   Figure 4. Large Trucks Involved in Fatal Crashes, Fatalities
     Associated With Those Crashes, and Large Truck VMT
 Fatal Crashes
 and Fatalities                                                         VMT (in millions)
 6,000                                                                           250,000

 5,000
                                                                                 200,000

 4,000
                                                                                 150,000
 3,000

                             Large Trucks Involved in Fatal Crashes              100,000
 2,000
                             Fatalities in Large Truck Crashes
                                                                                 50,000
 1,000                       Large Truck Vehicle Miles Traveled

     0                                                                           0
         1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004
                                Source: FHWA and NHTSA



RECOMMENDATIONS
Since our April 1999 audit, FMCSA has made positive strides in improving motor
carrier safety through its increased emphasis on enforcement, implementation of
the new entrant program, and completion of numerous rulemakings. However, to
fully implement our recommendations and to further advance efforts to reduce
large truck fatalities, we recommend that FMCSA take the following actions.
                                                                                 22


1. Strengthen the repeat violator policy by:

   a. enhancing controls, such as automated notification of prior violations in
      enforcement case software, to ensure that all violations meeting the current
      three strikes criteria are assessed the maximum penalty allowed by law and

   b. developing a procedure to count toward a “pattern of violations” under
      MCSIA Section 222, irrespective of how the violations are treated under
      UFA, all acute and critical violations that FMCSA discovers during future
      compliance reviews and either documents for inclusion on the Notice of
      Claim or obtains the motor carrier’s signed admission. The procedure must
      include an appropriate mechanism to notify the motor carrier of the
      agency’s discovery of the violation and of the applicability of Section 222.
      This recommendation shall neither diminish a motor carrier’s opportunity
      to challenge the Section 222 “strike”, nor FMCSA’s enforcement discretion
      to decline charging an arguable violation in appropriate circumstances.

2. Take firm action to increase compliance with the census data updating
   requirement by intensifying efforts to fine motor carriers that resist compliance
   or by taking other measures that can be demonstrated to be effective.

3. Establish a system to track attendance for the crash data training course and
   visits to the crash data website, and compare the results to changes in crash
   data reporting by states to assess whether training efforts are successful.

4. Rapidly implement the planned actions in the Crash Data Improvement Project
   plan and establish milestones for improving states’ compliance with
   standardizing crash reports and data elements.

5. Develop milestones for completing the required legislative recommendations
   for the Large Truck Crash Causation Study issued in March 2006.

6. Continue monitoring state safety audit activity to ensure timely completion of
   all safety audits.

7. Continue ongoing efforts to identify needed changes in the new entrant
   program to increase the enforcement component that would improve safety.

8. Expeditiously complete the driver medical certificate rulemaking.
                                                                                 23

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided FMCSA a draft of this report on December 16, 2005. In its
February 14, 2006 written comments, FMCSA identified actions taken or planned
that were responsive to six of our eight recommendations. FMCSA nonconcurred
with our recommendation to develop a procedure to ensure that repeat violators
are assessed maximum fines (recommendation 1b) and partially concurred with
our recommendation to fine motor carriers that do not update census records
(recommendation 2). Although FMCSA provided its written perspective on these
recommendations, it did not propose actions or plans responsive to our
recommendations. FMCSA also did not provide specific milestones for
completing planned actions for three recommendations (3, 7, and 8).

The OIG met with FMCSA officials on April 5, 2006 to discuss the two issues of
disagreement. The meeting resulted in resolution of the nonconcurrence with
recommendation 1b, although the disagreement on recommendation 2 was not
resolved. Specifically, for recommendation 1b, FMCSA agreed to take action to
ensure that repeat violators of the motor carrier safety regulations are not allowed
to escape maximum fines, although it will maintain discretion on which violations
to document. FMCSA indicated that it will identify specific approaches to
implement our recommendation when it responds to our final report.

For recommendation 2, FMCSA indicated that fining motor carriers for failing to
update census data would not be cost-effective, and it did not commit to any
specific action to further improve compliance. At this time, we consider
FMCSA’s position to be nonresponsive to our recommendation. However,
FMCSA did agree to consider alternative measures to encourage increased
compliance with the census data updating requirement. In our view, it is
important to increase compliance with the updating requirement because SafeStat
uses the census data to rank the safety performance of motor carriers. Without this
critical data, FMCSA cannot effectively identify all high-risk motor carriers. The
importance of data quality was recently reiterated by the Chairman of the House
Subcommittee on Highways, Transit, and Pipelines in requesting that OIG perform
a follow-up audit of the quality of SafeStat data.

Based on FMCSA’s written and verbal comments, we revised recommendations
1b and 2 to include additional detail and appropriate clarifications. FMCSA’s
complete written comments on the draft report findings and recommendations are
in the Appendix to this final report.

FMCSA’s comments on specific recommendations and OIG responses are
summarized below.
                                                                                     24


FMCSA Comments. For recommendation 1a, regarding automated notification
of prior violations, FMCSA stated that it designed a “three strike” data field as an
enhancement in EMIS to maintain motor carrier historical data and created a
“Summary Report for Section 222 Cases” that shows a detailed status of each
enforcement case.

OIG Response. We consider FMCSA’s comments on recommendation 1a to be
responsive.

FMCSA Comments. In its written response to our draft report, FMCSA
nonconcurred with recommendation 1b to strengthen the repeat violator policy by
broadening the definition of a pattern of violations. Specifically, FMCSA
objected to the inclusion of an unenforced violation as a "strike" where the motor
carrier is not given notice of the potential use of the violation as a factor in a future
fine calculation. FMCSA did agree that at least some unadjudicated violations
should be included in determining whether a pattern of violations has occurred
under Section 222. It stated that more violations in the future will be included
since it has begun notifying motor carriers that admission of liability for a
violation would result in that violation being counted towards Section 222.

OIG Response. We agree with FMCSA that there are valid legal reasons for its
policy allowing exclusion of violations that are not adjudicated or those that
preceded its admission of guilt language on the Notice of Claim. However, our
recommendation did not intend that FMCSA should retroactively include old
unenforced violations. Rather, our recommendation intended that FMCSA change
its policy for future enforcement actions to document acute and critical violations,
either through a civil penalty, a no-fine penalty, or some other means. This action
would legally notify motor carriers of the violation, but motor carriers would still
have the opportunity to provide evidence that the violation did not occur or was
not warranted.

We also agree that FMCSA should have discretion in determining whether to
document for Section 222 purposes an acute or critical violation that does not fall
within the UFA-recommended penalty range. We are not limiting FMCSA’s
discretion, but rather, we are recommending an additional tool for FMCSA to use
in strengthening the enforcement program. Congress has stressed its intent and
dedication to strengthening safety and reducing large truck-related fatalities and
injuries. We continue to believe that safety would be best enhanced by a strong
and vibrant enforcement program that meets the intent of Section 222—to reduce
the number of repeat violators of the regulations.

The intent of our recommendation is to ensure that motor carriers are not provided
a “loophole” to continually violate the regulations simply because the UFA limits
                                                                                   25

the range of the civil penalties that can be charged. A motor carrier’s financial
condition, while a fair criterion for its ability to pay fines for initial violations,
should not be used to justify a motor carrier’s continued violation of the same
regulations. There must be some disincentive to the motor carrier that discourages
repeat violations. The use of a no-fine penalty or other appropriate mechanism
would allow penalties for initial violations to remain within the UFA
recommended penalty range while also meeting Congress’ intent to bolster
FMCSA’s enforcement program as a deterrent to frequent violators.

FMCSA also objected to a statement in our report that set forth certain crash,
injury, and fatality data for September 2000 through December 2004. FMCSA
was of the opinion that our statement implied that crashes, fatalities, and injuries
could be directly attributed to delays in FMCSA’s implementation of Section 222
policy. Our statements regarding crashes, fatalities, and injuries were intended to
emphasize the point that motor carriers who repeatedly violate regulations have
been involved in crashes with fatalities. We revised our final report to clarify our
attribution.

FMCSA Comments. For recommendation 2, regarding civil penalties for failure
to update census information, FMCSA concurred in part but did not propose
alternative actions or plans that would satisfy the intent of the recommendation.
FMCSA did not dispute our point that only a small number of penalties were
assessed against motor carriers for failure to comply with the census data updating
requirement. However, FMCSA stated that its typical approach during a
compliance review is to direct a motor carrier not in compliance with the census
data updating requirement to update the information on the spot rather than assess
a penalty. During our April 5, 2006 meeting, FMCSA indicated that it was
doubtful that fining motor carriers for failing to report updates of census
information would be cost effective, but it was willing to consider alternative
measures that would encourage increased compliance with the census data
reporting requirement.

OIG Response. In response to a similar recommendation in our February 2004
report, FMCSA added stronger warning language to reminder letters sent to motor
carriers when a census update was due. The warning language stated that motor
carriers were subject to civil penalties for failure to comply with the updating
requirement. We continue to believe civil penalties would be the strongest
incentive for motor carriers to comply, but we are amenable to alternative actions
that achieve compliance. It is crucial that motor carrier census data are timely
updated because the information is used by SafeStat to rank the safety
performance of all motor carriers and to identify high-risk motor carriers. During
our April 5, 2006 meeting, FMCSA did not commit to any specific actions to
further improve compliance, but indicated a willingness to identify specific
alternative actions. Based on FMCSA’s written and verbal comments, we revised
                                                                                 26

recommendation 2 to specify that FMCSA implement civil penalties or other
measures to increase motor carriers’ compliance with the census data updating
requirement. At this time, we consider FMCSA’s position to be nonresponsive to
our recommendation.

FMCSA Comments. For recommendation 3, regarding the tracking of crash data
training, FMCSA stated that it: (1) currently tracks attendance and compiles a
database for all participants in the Crash Data Collection class, (2) can track data
challenges by state to its DataQs internet site, (3) added web-based Crash Data
Collection Training materials to the Data Quality Module of its Analysis and
Information internet site, and (4) will assess pre- and post-training crash data
reporting for completeness, timeliness, and accuracy for those states that
participate in the training program 1 year after the training has been conducted.

OIG Response. We consider FMCSA’s comments on recommendation 3 to be
responsive. However, we request that FMCSA provide a more specific milestone
for assessing pre- and post-crash data reporting.

FMCSA Comments. For recommendation 4, regarding the implementation of the
Crash Data Improvement Project plan, FMCSA stated that it:

   • is implementing and reviewing milestones for the planned actions in the
     Crash Data Improvement Plan and is investigating additional ways to
     measure the quality of crash data to include in this plan. FMCSA will
     complete its review in September 2006.

   • developed a State Crash Report Form quality measure, to be provided to
     states in June 2006, for evaluating whether the states’ crash reports have the
     required data elements.

   • will work with states to revise crash report forms or make any other
     changes necessary to encourage adoption of all required data elements in
     June 2006.

OIG Response.     We consider FMCSA’s planned actions responsive to
recommendation 4.

FMCSA Comments. For recommendation 5, regarding the implementation of the
Large Truck Crash Causation Study, FMCSA stated that it was (1) awaiting final
approval from the Office of the Secretary on its draft report and planned to
transmit the report to Congress in March 2006 and (2) developing milestones for
completing analyses of key safety problems and recommendations to Congress in
June 2006. FMCSA issued the Crash Causation Study in March 2006.
                                                                                  27

OIG Response.     We consider FMCSA’s planned actions responsive to
recommendation 5.

FMCSA Comments. For recommendation 6, regarding continued monitoring of
state safety audit activity, FMCSA stated that it hired a contractor to contact every
motor carrier who enters the new entrant program and that it has tools in place to
ensure that safety audits are completed before they are overdue. Both the MCMIS
database and the GOTHAM Information and Analysis internet sites have built-in
reports that allow FMCSA personnel to identify motor carriers that have not been
contacted.

OIG Response.     We consider FMCSA’s planned actions responsive to
recommendation 6.

FMCSA Comments. For recommendation 7, regarding efforts to identify needed
changes in the new entrant program, FMCSA stated that it plans to conduct an
initial assessment of the effectiveness of the new entrant program to determine its
impact on safety. FMCSA plans to begin this initial assessment in FY 2006 and
anticipates its completion in FY 2008. It is also planning a full program
evaluation beginning in FY 2008.

OIG Response.           We consider FMCSA’s comments responsive to
recommendation 7. However, we request that FMCSA provide more specific
milestones for these evaluations.

FMCSA Comments. For recommendation 8, regarding completion of the driver
medical certificate rulemaking, FMCSA stated that it is developing a Notice of
Proposed Rulemaking (NPRM) to link the medical certification to the CDL, and
plans to issue it in late 2006.

OIG Response.            We consider FMCSA’s comments responsive to
recommendation 8. However, we request that FMCSA provide more specific
milestones for issuing the NPRM on the medical certificate rulemaking.
                                                                                28


EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objective was to assess FMCSA’s progress in (1) implementing OIG’s
1999 audit recommendations to strengthen enforcement and improve motor carrier
data, (2) establishing the new entrant program to improve the safety performance
of new motor carriers, and (3) completing MCSIA-required rulemakings. The
audit was conducted from December 2003 through September 2005, which
included a suspension of audit work from May 2004 to October 2004 due to a
requirement to conduct an audit of the North American Free Trade Agreement
Cross-Border Trucking Provisions. We conducted our work in accordance with
Generally Accepted Government Auditing Standards as prescribed by the
Comptroller General of the United States and included tests of internal controls as
were considered necessary.

We used computer-generated data from FMCSA’s Motor Carrier Management
Information System (MCMIS) and Enforcement Management Information System
(EMIS). Although we did not assess the general and application controls for each
system, we did selectively test the data to ensure completeness. We also verified
the reliability of data related to new entrant motor carrier safety audits.

To accomplish our audit objectives, we interviewed FMCSA and state officials,
reviewed supporting documentation, and independently analyzed MCMIS and
EMIS data. In doing so, we directly accessed the MCMIS and EMIS databases
instead of relying on downloaded information from FMCSA. Specifically, we
completed the following audit steps.

Enforcement Trends. The scope of our review focused on active motor carriers
and enforcement activity for FYs 1998 through 2004. We identified trends in the
enforcement of motor carrier regulations from MCMIS and EMIS database files.
We performed trend analyses and stratifications on the number of compliance
reviews, enforcement cases, and roadside inspections, including the resulting
violations and driver/vehicle out-of-service orders. We also analyzed civil penalty
assessments, safety fitness ratings, and motor carrier out-of-service orders.

Repeat Violators. Using compliance review data from the MCMIS database, we
determined whether motor carriers were assessed repeatedly for the same violation
during the compliance review/enforcement process and whether a third violation
was assessed a maximum penalty. We counted only acute and critical violations
of drug and alcohol and hours of service regulations for this analysis.

Improving Data Quality. As part of our February 2004 SafeStat audit, we
analyzed data quality problems and issues. We, therefore, used analysis from the


Exhibit A. Objectives, Scope, and Methodology
                                                                                                                  29

SafeStat audit in our discussion of problems associated with the completeness and
accuracy of crash and inspection data reported to FMCSA by the states, and
updated the information to a limited extent wherever necessary.

Motor Carrier Census Data. Granting of interstate operating authority is
contingent on motor carriers providing census data on the number of drivers they
employ and commercial vehicles (power units) they own or lease. We compared
motor carrier census data results from the SafeStat audit as of January 2003 to
updated census data analysis as of January 2005. For both analyses, we identified
the total number of active motor carriers in MCMIS and tested the quality of data
in two areas: MCS-150 submissions16 and the presence of zeros17 in the number
of drivers and power units. An MCS-150 submission was counted as valid if a
date was present in the MCS-150 date field. We looked for zeros, but did not
verify whether numbers found in the database represented the number of drivers
and power units actually employed and maintained by the motor carrier.

Improving the Quality of Motor Carrier Operating Data. We interviewed
FMCSA officials regarding efforts to ensure states accurately report crash, vehicle,
driver, and violation data and motor carrier safety training programs for local
enforcement personnel addressing crash, inspection, and traffic violation
reporting. We reviewed FMCSA and NHTSA’s joint efforts to improve crash data
and collection, to support standardized reporting of commercial motor vehicle
crashes in MCMIS, and to promote adoption of the Model Minimum Uniform
Crash Criteria. We also monitored metrics for improving crash and inspection
data completeness, accuracy, and timeliness; reviewed MCSAP formula state
funding distributions; and monitored the status of the Large Truck Crash
Causation Study. To avoid overlap with the Government Accountability Office’s
audit of FMCSA enforcement issues, we did not validate the methodology for the
data quality ratings or the data used to develop FMCSA’s online map indicating
the quality of states’ crash and inspection data.

Safety Audit Workload. Using MCMIS data, we identified the number of safety
audits and compliance reviews conducted as of November 1, 2005, and the
number of new entrant registrants per month. We focused on current new entrant
motor carriers and motor carriers that exited the new entrant program after a safety
audit or compliance review. We stratified the new entrant motor carriers by month
using the date of registration and completed an aging analysis of the safety audits
to determine whether they were completed on time.


16
     FMCSA promulgated rules, established in November 2000, to require motor carriers that were active on
     December 31, 2000 to update their census forms every 2 years by submitting an MCS-150 Form to FMCSA.
17
     The presence of zeros in the number of drivers or power units is recognized as a data error and causes subsequent
     errors in analysis of the relative safety of motor carriers by FMCSA in targeting carrier for compliance reviews.


Exhibit A. Objectives, Scope, and Methodology
                                                                                 30

Effectiveness of New Entrant Program. Using relative SafeStat rankings, we
attempted to demonstrate whether new entrant carriers were better or worse than
an equivalent group of non-new entrant motor carriers. Using SafeStat historical
data in MCMIS, we compared the first full two years of new entrant motor carriers
to new carriers from an earlier two-year period that were not required to register
for the new entrant program. To determine the SafeStat ranking of the new motor
carrier groups, we linked the non-new entrant group to the April 28, 2003 SafeStat
rankings and the new entrant group to the April 22, 2005 SafeStat rankings.

Statistical Analysis of Safety Audit Data Reliability. We verified records of
new entrant safety audits by statistically testing 389 files from a universe of
14,544 safety audits from MCMIS, using stratified random sampling with a
5 percent relative precision and 95 percent confidence level. We requested signed
original documents for 389 selected safety audits from FMCSA for comparison to
computer-processed data records. FMCSA was unable to provide 21 of the
389 signed original documents from nine states and one Canadian province. We
matched and verified data fields and motor carrier attributes such as legal name,
state, safety audit date, fleet miles, and number of drivers with CDLs. We also
verified critical and acute responses to questions related to two safety performance
factors on driver regulation and motor carrier management operations. We
compared the number of non-matched data entries to the number of total possible
matches. Of a possible 5,981 entries checked, there were 356 (or 5.95 percent)
missing and non-matching data entries, including 330 missing data entries from
the 21 safety audit documents that FMCSA was unable to provide. We identified
only 26 non-matching entries (or 0.4 percent). Based on these results, we
concluded the safety audit data were reliable for audit.

Completion of MCSIA-related Rulemakings. Our review was limited to
determining the status of MCSIA-related rulemakings. To determine the status of
these rulemakings, we monitored the MCSIA Legislative Implementation Plan, the
Department’s Docket Management System, and the semiannual Unified Agenda
Report. We also interviewed FMCSA and NHTSA officials to identify milestones
for completing outstanding rulemakings, the reasons for the delays, and the related
safety impacts. In addition, although outside the scope of our audit, we identified
the number of outstanding significant rulemakings on FMCSA’s and NHTSA’s
rulemaking agendas to provide proper disclosure of the status of rulemakings.




Exhibit A. Objectives, Scope, and Methodology
                                                                          31



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



   Name                              Title

   Kurt W. Hyde                      Assistant Inspector General
                                      for Surface and Maritime Programs

   Joseph W. Comé                    Program Director

   Kerry R. Barras                   Project Manager

   Christopher T. Brothers           Senior Analyst

   David W. Brown                    Senior Analyst

   John M. Hannon                    Senior Analyst

   Amitra Mamdouhi                   Analyst

   Calvin L. Moore II                Analyst

   Farrin Tamaddon                   Analyst

   Harriet E. Lambert                Writer-Editor

   Thomas K. Lehrich                 Chief Counsel

   Katherine Ovalle                  Associate Counsel

   William E. Savage                 Information Technology Specialist




Exhibit B. Major Contributors to This Report
                                                                                     32

APPENDIX. AGENCY COMMENTS



U.S. Department
                                          Memorandum
Of Transportation
Federal Motor Carrier
Safety Administration



Subject: INFORMATION: Response to the Office                           Date:
         of Inspector General’s (OIG) Draft Report “Significant
         Improvements in Motor Carrier Safety Program Since
         1999 Act But Loopholes For Repeat Violators Need
         Closing,” Project Number: 04M3002M000

From:    Annette M. Sandberg
                                                                       In Reply Refer To: MC-P
         Administrator

To:      Kurt Hyde
         Assistant Inspector General
          for Surface and Maritime Programs (Attn: JA-40)

This memorandum is in response to your December 16, 2005, draft report titled, “Significant
Improvements in Motor Carrier Safety Program Since 1999 Act But Loopholes For Repeat
Violators Need Closing.” The report was a follow-up to OIG’s 1999 audit of the motor carrier
safety program and focuses on the Federal Motor Carrier Safety Administration’s (FMCSA)
implementation of the Motor Carrier Safety Improvement Act of 1999 (MCSIA). The objective
of the audit was to assess FMCSA’s progress in implementing OIG’s 1999 audit
recommendations to strengthen enforcement and improve motor carrier data, establishing the
New Entrant program to improve the safety performance of new motor carriers, and completing
MCSIA-required rulemakings. We have reviewed the report and provided general comments as
well as responses to the eight recommendations below. Although we have a difference in
perspective in some areas, we consider many of the findings and recommendations to be
constructive and already have actions underway to address them.

COMMENTS

FMCSA acknowledges and agrees with OIG that our enforcement program needs to be further
strengthened, motor carrier data improvements need enhancement, improvements to the New
Entrant program need to be made to enhance the safety performance of new motor carriers, and
the one outstanding MCSIA-required rulemaking needs to be closed. We have taken major steps
towards these goals. We are pleased that OIG acknowledges FMCSA has significantly improved
oversight of motor carrier safety since the 1999 audit. FMCSA has worked diligently to
implement the recommendations from the 1999 audit and we have increased enforcement of the
regulations by conducting more compliance reviews, opening more enforcement cases,

Appendix. Agency Comments
                                                                                         33
increasing civil penalties for violations of the safety regulations, combining civil penalty
settlement agreements with consent orders, and expanding our use of out-of-service orders. We
have also instituted important initiatives to reduce fraud in the commercial driver’s license
(CDL) program, in addition to implementing a New Entrant program to ensure new motor
carriers applying for Federal interstate operating authority are familiar with the safety
regulations. Since implementing the program, and as acknowledged by OIG, our safety audits
have been timely.

On pages 8 and 9, OIG sets forth certain crash, injury and fatality data for the period September
2000, when FMCSA first began implementing the Section 222 policy, through December 2004,
when FMCSA issued its clarification of that policy. The report states that “FMCSA enforced
maximum civil penalties against 146 motor carriers. However, 71 additional motor carriers
repeatedly violated the safety regulations, but were not assessed maximum penalties. Of these
motor carriers, 50 were involved in 215 crashes resulting in 13 fatalities and 152 injuries.” The
report further states that “one motor carrier with 55 commercial vehicles was assessed a civil
penalty three times for violating the hours of service regulations, but was not assessed a
maximum penalty under the three strikes rule. During the same period, the motor carrier was
involved in a fatal crash. We attribute these instances to the delay in the issuance of the policy
clarification.” We are concerned that OIG offers no evidence or analysis to indicate what
number of crashes, if any, would have been prevented had the maximum civil penalty been
imposed on these motor carriers. It is reasonable to assume that even a maximum fine would not
have driven all of the affected carriers out of business; so, at least some of the carriers would
have continued in operation, and it is likely that at least some crashes would still have occurred.
We believe OIG’s conclusion that 100 percent of these crashes, fatalities and injuries should be
“attributed” to the Agency’s “delay” grossly overstates the effects of the circumstances giving
rise to our policy clarification. We request OIG delete this sentence.

On page 14, the report states “Although much progress was made in completing MCSIA-
required rulemakings, a number of significant rulemakings remain outstanding on the agencies’
agenda. Although not covered under the scope of this audit, as of August 24, 2005, FMCSA had
16 significant outstanding rulemakings on its agenda, 9 of which are at least 2 years old.
NHTSA had 10 outstanding significant rulemakings, but only 1 is more than 2 years old.” We
are concerned that this paragraph is ambiguous and is contradicted by the next sentence which
notes that only one FMCSA MCSIA-required rulemaking remains outstanding. As FMCSA staff
discussed with OIG staff at the September 15, 2005, Exit Conference, and as noted later in this
same paragraph of the draft report, only one of the outstanding rulemakings is related to MCSIA.
FMCSA believes references to rulemakings unrelated to MCSIA are not relevant to the OIG
audit, and we request OIG delete references to material outside the scope of the audit.


RESPONSES TO SPECIFIC RECOMMENDATIONS

RECOMMENDATION 1a. Strengthen the repeat violator policy by enhancing controls, such
as automated notification of prior violations in enforcement case software, to ensure that all
violations meeting the current three strikes criteria are assessed the maximum penalty allowed
by law.



Appendix. Agency Comments
                                                                                           34
Response: CONCUR. A "three strikes" data field was designed as an enhancement to
FMCSA’s primary Enforcement Management Information System (EMIS). This field facilitates
the Agency's maintaining carrier historical data, thereby enabling the agency to target those
carriers with prior violation histories of the same regulatory part so that we may assess the
maximum penalty allowed by law for repeat violations. A "Summary Report for Section 222
Cases" was also created that shows, by Division, Service Center, or entire country, the case
number, status of the case, total counts claimed, total monetary amount claimed and amount
settled as well as the regulatory cite and violation description for the third strike violation.


RECOMMENDATION 1b. Strengthen the repeat violator policy by broadening the definition
of a pattern of violations to include unenforced violations from previous compliance reviews.

Response: NON CONCUR. The OIG recommendation to include “unenforced violations“ as
“found“ violations for purposes of Motor Carrier Safety Improvement Act of 1999 (MCSIA)
section 222 violates principles of due process and fair play and is inconsistent with the Assistant
Administrator’s Final Orders In the Matter of Starving Students Moving Sys., Inc., FMCSA
2001-10187 (Mar. 17, 2005); In the Matter of L&W Trucking, LLC, FMCSA-2001-11002
(Mar. 17, 2005); In the Matter of Charley Transportation, FMCSA 2001-10952 (Mar. 18, 2005);
In the Matter of G.E. Robinson Co., Inc., FMCSA 2003-14980 (Mar. 18, 2005); and In the
Matter of MP Livestock Trust, FMCSA 2001-10610 (Mar. 17, 2005). Those Final Orders, inter
alia, struck down the Agency’s use, for purposes of the “History” and “Extent” elements of the
Uniform Fine Assessment (UFA) algorithm, motor carrier violations that the Agency discovered
during compliance reviews but did not document. The recommendation is also inconsistent with
FMCSA’s revised policy on enforcement procedures that was adopted following the Starving
Students decisions. OIG was advised of the Agency’s concern regarding this recommendation at
the Exit Conference in September 2005.

FMCSA objects to the inclusion of an unenforced violation as a “strike” where the carrier is not
given notice of the potential use of the violation as a factor in a future fine calculation. Until a
violation is “enforced,” i.e., until it is included in an enforcement case that results in an
adjudication, settlement, penalty payment or default, the carrier has no notice under current
practice that the alleged violation may count toward some future penalty.

The OIG’s suggestion that the Agency might revise its practice to impose nominal fines for such
violations “as a warning that future violations could result in the maximum fine” simply changes
the recommendation. Once any fine is imposed, the violation is no longer “unenforced.” The
Agency also objects on the basis that the formal recommendation improperly impinges on the
Agency’s discretion in carrying out enforcement policy.

The language of MCSIA Section 222 is problematic. The statute requires the Agency to impose
the maximum civil penalty only if the person is “found to have committed a pattern of
violations.” 49 U.S.C. § 521 note, quoting § 222(b)(2) (emphasis added). The Agency's
December 28, 2004, Federal Register (FR) notice clarified that the Agency will interpret this
statutory language “as requiring an adjudication or admission” in “a previous enforcement
case.” 69 FR at 77829 (emphasis added). Such adjudication or admission could take the form of
either:


Appendix. Agency Comments
                                                                                            35
       1. An explicit adjudicatory finding of a violation by the Agency (Assistant Administrator
       or a DOT Administrative Law Judge);

       2. An express admission of liability by the respondent in its reply to the Notice of Claim
       (NOC) and in a settlement agreement;

       3. A Final Agency Order under 49 CFR 386.14(e), based on respondent's failure to reply
       to the NOC; or

       4. Payment of a civil penalty in response to a NOC advising respondent that payment
       will constitute an admission of the violations set forth in the NOC.

Thus, even after the December 2004 clarification, the Agency required that carriers be given
notice that a violation could count toward a future imposition of the maximum penalty only in
enforcement cases, i.e., with respect to violations that were being enforced. Violations
discovered in a compliance review (CR) but not enforced did not trigger the section 222 fair
warning language.

FMCSA’s May 23, 2005, implementing guidance on UFA, issued in response to Starving
Students, was consistent with the December 2004 section 222 policy clarification.
The UFA implementing guidance stated with respect to history of prior offences that, effective
immediately, the only prior cases used in the “history” factor applicable to the civil penalty
computations under UFA are those cases for which there is:

       1. A final order in favor of the Agency by the Assistant Administrator or a DOT
       Administrative Law Judge;

       2. A settlement agreement containing an express admission of liability;

       3. Payment of the penalty in response to NOC which contained “warning language” that
       payment will constitute an admission of liability; or

       4. A final Agency order issued pursuant to 49 CFR 386.14(e) for respondent's failure to
       reply (a “default”).

The May 2005 UFA/Starving Students implementing guidance also states that the NOC will
inform the carrier that, where applicable, the carrier's history will be used in the calculation of
the penalty. The section 222 “warning language” in the current NOC advises the carrier:

       Under section 222 of the Motor Carrier Safety Improvement Act of 1999, recurring
       violations of the same or related acute or critical regulations (violations of the same Part
       in Title 49 of the Code of Federal Regulations) which result in three or more enforcement
       actions within a six-year period will cause the maximum penalties allowed by law to be
       assessed for the third and subsequent enforcement actions. Any violation with a
       checkmark in the “§ 222 Applied” column in the penalty table below are [sic] subject to
       the “Section 222” provision and the maximum penalties have been assessed. See 49 USC
       § 521(b), 49 USC § 5123, 49 USC Chapter 149, and 49 CFR Part 386, Appendix A.


Appendix. Agency Comments
                                                                                         36
Thus, carriers currently are given notice that check marked violations will count as section 222
strikes. However, the notice does not address violations discovered but unenforced, and these
are the additional violations that the OIG would have the Agency include within the definition of
a “found...pattern of violations.”

The UFA/Starving Students guidance also changed the Agency’s CR practice to require Safety
Investigators to document all violations discovered, even those not charged. Many unenforced
violations prior to Starving Students and the FMCSA implementing guidance, however, were not
documented. The OIG’s recommendation arguably would have the Agency include even these
undocumented, pre-Starving Students violations as section 222 strikes.

FMCSA and OIG agree that at least some unadjudicated violations should and will be included
in determining whether there has been a pattern of violations under section 222, i.e., those to
which the carrier has admitted liability after receiving notice that the admission will count as a
section 222 strike. However, the broad language of the OIG recommendation applies to
unenforced violations -- all unenforced violations -- with no requirement that the carrier be given
notice that the unenforced violation would count against it in the current or a future penalty
calculation, let alone as a basis for a maximum penalty. Therefore, the OIG recommendation
exceeds the scope of both the December 2004 FR clarification and the May 2005 UFA
implementing guidance.

The OIG argues that FMCSA should be charging every alleged violation discovered during a CR
and that by not doing so the Agency created “loopholes” that must be closed by changing
enforcement policy. We believe this argument is overly simplistic. This is not a situation where
the Agency has created or acquiesced to loopholes that allow motor carriers to escape maximum
fines. The Agency enforcement program is in the best position to determine an effective
enforcement posture. The Agency believes its mission is better served by the use of discretion in
assessing penalties and the carrier can be educated for future compliance. The Agency has
limited resources to conduct both CR and enforcement actions. If the Agency is required to cite
every violation, the number of reviews and enforcement actions would be diminished, especially
with the increasing motor carrier population. Frequently, there are compelling tactical reasons
for not assessing penalties -- either because it would be unnecessary or because it would be
advantageous in the context of achieving compliance -- analogous to plea negotiations or
charging decisions in criminal cases.

Thus, in keeping with Starving Students, the Agency believes that violations discovered during a
CR, but unenforced, should not be included in determining whether there is “a pattern of
violations” under section 222, because such violations have neither been subjected to the rigors
of adjudication nor has the carrier admitted them. Moreover, FMCSA’s mission is not simply to
assess and collect fines. Rather it is to induce compliance.




Appendix. Agency Comments
                                                                                              37
RECOMMENDATION 2. Enforce fines against motor carriers for failure to comply with the
census data updating requirement.

Response: CONCUR IN PART. As noted in the OIG report, FMCSA has assessed penalties
against carriers for failure to comply with the census data updating requirement in only a small
number of instances. The Agency's policy is to assess penalties primarily where there have been
violations of acute and/or critical violations. FMCSA’s Field Operations Training Manual
(Investigator’s Manual, page 278) recommends, “The enforcement case should reflect the
carrier’s safety posture by penalizing the carrier for each of the acute and critical violations
recorded on the compliance review, if possible.” Failure to comply with the census data
updating requirement (49 CFR 390.19(e)) is neither an acute nor a critical violation. An
investigator may assess penalties for failure to provide the required update in certain
circumstances, such as the discovery of other violations that are acute or critical. However, the
typical approach is for the investigators to review the carrier’s data during compliance reviews.
If the carrier has failed to update its census data as required, the investigator directs the carrier to
update the information on the spot rather than assess a penalty for the violation.


RECOMMENDATION 3. Establish a system to track attendance for the crash data training
course and visits to the crash data web site, and compare the results to changes in crash data
reporting by states to assess whether training efforts are successful.

Response: CONCUR. FMCSA currently tracks attendance and compiles a database that
includes the name, contact information, and enforcement affiliation for all participants in the
Crash Data Collection for Commercial Motor Vehicles class. Using current FMCSA data quality
measurement tools, specifically the measures used in the Data Quality map for completeness,
timeliness and accuracy, FMCSA will assess pre and post training crash data reporting for those
States that participate in the training program to measure the effectiveness of the training. This
assessment will begin one year after the training has been conducted. FMCSA can track data
challenges to our DataQs Web site by State of challenge and can also use this information in our
evaluation. In addition, FMCSA is adding web-based Crash Data Collection Training materials
to the Data Quality Module of its Analysis and Information Online Web site by the end of
January 2006. These materials will serve as an educational resource for law enforcement
officers, CMV inspection authorities, crash investigation trainers, and State department of
transportation crash records developers and users, with the goal of improving the quality of crash
data reported by the States to FMCSA.


RECOMMENDATION 4. Rapidly implement the planned actions in the Crash Data
Improvement Project plan and establish milestones for improving states’ compliance with
standardizing crash reports and data elements.

Response: CONCUR. FMCSA is in the process of implementing and reviewing milestones for
the planned actions in the Crash Data Improvement Plan. FMCSA is also investigating
additional ways to measure the quality of crash data to include in this plan. Although FMCSA
does not have the authority to require States to standardize their report forms, FMCSA has
developed a State Crash Report Form measure to evaluate whether the State’s crash report has
the SAFETYNET data elements that are reportable to FMCSA. FMCSA will work with States

Appendix. Agency Comments
                                                                                         38
to revise crash report forms or make any other changes necessary to encourage adoption of all
SAFETYNET data elements required by FMCSA. In June 2006, FMCSA will provide States
with the State Crash Report Form quality measure. In September 2006, FMCSA will complete
our review of the status and milestones in the Crash Data Improvement Plan.


RECOMMENDATION 5. Transmit the Large Truck Crash Causation Study results to
Congress, and develop milestones for completing the required legislative recommendations.

Response: CONCUR. FMCSA drafted a report to Congress on the Large Truck Crash
Causation Study and is awaiting final approval from the Department of Transportation Office of
the Secretary before the report is transmitted to Congress. FMCSA is also developing milestones
for completing analyses of key safety problem areas and making recommendations to Congress.
However, FMCSA has already begun shifting emphasis to driver issues based on the first results
from the study that validate the importance of the driver in preventing crashes. We anticipate
transmitting the report to Congress in March 2006 and completing milestone development in
June 2006.


RECOMMENDATION 6. Continue monitoring state safety audit activity to ensure timely
completion of all safety audits.

Response: CONCUR. FMCSA hired a contractor to contact every motor carrier who enters the
New Entrant program. This contractor contacts every new entrant within their first 90 days in
the program. During this contact, the carrier is validated to ensure they are truly subject to the
program, more carrier data is collected, the company is educated on the new entrant safety
regulations and directed to contact the appropriate office for scheduling of a safety audit. The
efforts of this new initial contact by the contractor will result in a much cleaner database of new
entrant carriers in the Motor Carrier Management Information System (MCMIS). With the
additional information that the contractor is collecting at the time of this contact (cell phone
numbers, fax numbers, etc.), it will be easier to establish and maintain communication with the
carrier throughout its presence in the new entrant process. This will allow FMCSA and its
partners in the New Entrant program to be more efficient in contacting, scheduling, and
performing safety audits. Additionally, FMCSA has tools in place to ensure that safety audits
are completed before they become overdue. Both the MCMIS database and the GOTHAM
Information and Analysis web site have reports built into them that allow FMCSA personnel to
see which carriers have not been contacted. Reports are also available that list carriers who are
within 6 months of becoming overdue and in need of a safety audit. Proper use of these tools,
together with all other available resources, including use of third-party auditors, should ensure
carriers do not stay in the New Entrant program longer than 18 months without a safety audit
being completed.


RECOMMENDATION 7. Continue ongoing efforts to identify needed changes in the new
entrant program to increase the enforcement component that would improve safety.

Response: CONCUR. The New Entrant program was implemented because studies showed
that new entrant motor carriers had a higher crash rate than other carriers. The program will

Appendix. Agency Comments
                                                                                          39
need additional time to determine if the New Entrant program is working to decrease these
crashes. FMCSA is planning to conduct an initial assessment of the effectiveness of the New
Entrant program in terms of its impact on safety. We plan to begin this initial assessment in
fiscal year 2006 and anticipate completion in fiscal year 2008. In addition, we are planning a full
program evaluation beginning in fiscal year 2008.


RECOMMENDATION 8. Expeditiously complete the driver medical certificate rulemaking.

Response: CONCUR. FMCSA is currently developing a Notice of Proposed Rulemaking
(NPRM) to link the medical certification to the CDL. We anticipate the NPRM being issued
later in 2006.


We look forward to working with OIG to strengthen enforcement of the safety regulations and
improve data used to regulate motor carriers. If you need additional information or clarification,
please do not hesitate to contact me, or Rose McMurray, Associate Administrator for Policy and
Program Development at 202-366-8773.




Appendix. Agency Comments
                                                                                40



The following pages contain textual versions of the graphs and charts found in the
preceding document. These pages were not in the original document but have been
added here to accommodate screenreaders and other assistive technology.
                                                                                    41


Textual Translation of Figures in the Report
Compliance Review Violations Cited and Enforced by Fiscal Year
Figure 1, located on page vi of the report (also shown on page 3 as Figure 3),
provides a chart showing the trends of number of compliance reviews and the
violations found and enforced from FY 1998 to FY 2004. The chart indicates the
following.
The number of compliance reviews increased each year from 6,312 in FY 1998 to
13,074 in FY 2001—which was the highest total for compliance reviews in the
period reviewed—then declined to 10,658 in FY 2004. The number of violations
found increased each year from 10,624 in FY 1998 to 19,635 in FY 2000—which
was the highest total for violations found in the period reviewed—then declined to
12,422 in FY 2004. The number of violations enforced increased each year from
2,240 in FY 1998 to 7,865 FY 2003—which was the highest total for violations
enforced in the period reviewed—then declined to 6,957 in FY 2004.

Out-of-Service Orders
Figure 2, located on page vii of the report (also shown on page 5 as Figure 4),
provides three charts that identifies the number of out-of-service orders for each
motor carrier category and shows the trend in out-of-service orders from 1998 to
2004. A motor carrier can receive an out-of-service order for maintaining: (1) an
unsatisfactory safety fitness rating for more than 60 days, (2) failing to pay a civil
penalty after 90 days, or (3) posing an imminent hazard to safety. The charts
indicate the following.

Out-of-service orders for motor carriers with unsatisfactory safety fitness rating
declined from 39 in FY 1998 to 29 in FY 1999, then increased each year to 425 in
FY 2004. For out-of-service orders for failure to pay civil penalties, there were
none prior to FY 2001, then increased each year from 25 in FY 2001 to 1,378 in
FY 2004. Imminent hazard out-of-service orders have remained flat, generally,
declining from 5 in FY 1998 to 2 in FY 2004.

New Entrant Motor Carriers Awaiting Safety Audit
Figure 5, located on page 17 of the report, provides a chart showing the number of
new entrant motor carriers segmented by the number of months awaiting a safety
audit as of November 1, 2005. The segment categories range from zero months to
+18 months. These segment categories are periods of time of one calendar month
except for the +18 months category, which lumps together new entrant motor
carriers that had not received a safety audit within an 18-month period. The chart
indicates the following.
As the months segment categories increased from the zero months (less than one
month) category to the 18 months category, the number of new entrant carriers
                                                                                 42

awaiting a safety audit generally declined from 5,072 in zero months to 314 in 18
months except the 3 months category had a total of 8,889 motor carriers. The
unusually high total in the 3 months category was due to 4,751 previously
inactivated new entrant motor carriers reinstated by FMCSA on July 10, 2005.
Only 663 motor carriers were found in the +18 months category.

Large Trucks Involved in Fatal Crashes, Fatalities Associated With
Those Crashes, and Large Truck VMT
Figure 6, located on page 20 of the report, provides a chart showing a comparison
between the most recent 7-year trend of large truck-related fatalities and
involvement in fatal crashes in relation to large truck vehicle miles traveled
(VMT) with the preceding 7-year period. The chart indicates the following.
The chart shows a steady increase in large truck VMT during the entire period
1991 to 2004. Also, over the period, there was a close correlation between large
truck related fatalities and large truck involvement in fatal crashes. From 1991 to
1997, fatalities and involvement in fatal crashes increased. From 1998 to 2002,
fatalities and involvement in fatal crashes declined. In 2003 and 2004, there was a
slight increase in fatalities and involvement in fatal crashes.
